No. 20In the

Supreme Court of the United States
THE BOARD OF SUPERVISORS OF LOUISIANA
STATE UNIVERSITY AND AGRICULTURAL
AND MECHANICAL COLLEGE,
Petitioner,
v.
STEPHEN M. GRUVER, INDIVIDUALLY AND ON
BEHALF OF MAXWELL R. GRUVER; RAE ANN
GRUVER, INDIVIDUALLY AND ON BEHALF OF
MAXWELL R. GRUVER,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
David M. Bienvenu, Jr.
Counsel of Record
Lexi T. Holinga
Patrick H. Hunt
Bienvenu, Bonnecaze, Foco,
Viator & Holinga, APLLC
4210 Bluebonnet Blvd.
Baton Rouge, LA 70809
(225) 388-5600
david.bienvenu@bblawla.com
Counsel for Petitioner
298811

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
1.

Can Congress, in the exercise of Article I Spending
Power, unilaterally expand federal judicial power
for private civil damages actions asserted against
the states by requiring states to waive Eleventh
Amendment immunity to suit in federal court as a
condition tethered to the receipt of federal funds
accepted and used by the states to assist in providing
public education to the citizens?

2.

In the Civil Rights Remedies Equalization Act,
42 U.S.C. § 2000d-7, Congress conditioned LSU’s
receipt of federal funds and required LSU to waive
Eleventh Amendment immunity to private actions
brought under Title IX as Article I Spending Power
legislation. This condition was imposed over 100 years
after LSU, an arm of Louisiana, commenced receiving
federal resources to assist, in part, academic research
and higher education of students without any adverse
impact on Louisiana’s sovereignty and fourteen years
after Title IX was enacted without any adverse impact
on Louisiana’s sovereignty. Did Congress exceed its
Article I Spending Powers by conditioning continued
receipt of federal educational funds on LSU’s waiver
of Eleventh Amendment sovereign immunity?

ii
PARTIES TO THE PROCEEDING
The Board of Super visors of Louisiana State
University and Agricultural and Mechanical College,
petitioner on review, was the appellant below and a
defendant in the trial court.
Stephen M. Gruver and Rae Ann Gruver, individually
and on behalf of their deceased son, Maxwell R. Gruver,
are respondents on review. Mr. and Mrs. Gruver were
appellees below and plaintiffs in the trial court.

iii
RELATED PROCEEDINGS
United States District Court (M.D. La.):
Gruver, et al. v. La. through the Bd. of Supervisors
of La. State Univ. and Agric. & Mech. Coll., et
al., No. 18-cv-772 (Oct. 19, 2018) (granting in part
motion to stay discovery)
Gruver, et al. v. La. through the Bd. of Supervisors
of La. State Univ. and Agric. & Mech. Coll., et
al., No. 18-cv-772 (July 19, 2019) (granting in part
and denying in part motion to dismiss)
Gruver, et al. v. La. through the Bd. of Supervisors
of La. State Univ. and Agric. & Mech. Coll.,
et al., No. 18-cv-772 (Nov. 22, 2019) (denying
interlocutory certification and denying motion to
certify appeal as frivolous and dilatory)
United States Court of Appeals (5th Cir.):
Gruver, et al. v. La. Bd. of Supervisors of La. State
Univ. and Agric. & Mech. Coll., No. 19-30670
(Jan. 31, 2020) (denying hearing en banc)
Gruver, et al. v. La. Bd. of Supervisors of La. State
Univ. and Agric. & Mech. Coll., No. 19-30670
(May 12, 2020) (panel decision)

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 4
I.

CONGRESS CANNOT USE ARTICLE
I SPENDING POWER TO EXPAND
FEDERAL JUDICIAL POWER OVER
THE STATES THROUGH ABROGATION
OR CONSTRUCTIVE WAIVERS OF THE
STATES’ ELEVENTH AMENDMENT
IMMUNITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

v
Table of Contents
Page
A. A rticle I Spending Power cannot
be used by Cong ress to expand
federal judicial power over the states
through abrogation . . . . . . . . . . . . . . . . . . . . . 6
B. Article I Spending Power cannot be
used to expand federal judicial power
through conditions created by Congress
to regulate sovereign immunity that
procure “constructive waivers” of
sovereign immunity from the states . . . . . 10
C. Federal funding of higher education
should not be viewed as a “gift” in the
context of Congress regulating state
sovereign immunity as a constitutional
condition imposed on a “gift” . . . . . . . . . . . 19
II. EVEN IF A REQUIRED WAIVER BY
CONGRESS CAN BE PERMISSIBLE
UNDER ARTICLE I SPENDING POWER,
CONGRESS’ REQUIRED WAIVER OF
LSU’S ELEV ENTH A MENDMENT
IMMUNITY TO A TITLE IX PRIVATE
ACTION IS NOT “CLEAR NOTICE”
A ND IS UNCONSTITU TIONA LLY
COERCIVE  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED MAY 12, 2020  . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF LOUISI A NA ,
FILED JULY 19, 2019  . . . . . . . . . . . . . . . . . . . . . . . 13a
A P P E N DI X C — C ON S T I T U T IONA L
A ND STATU TORY PROV ISION
INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Alden v. Maine,
527 U.S. 706 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . 22, 29
Atascadero State Hospital v. Scanlon,
473 U.S. 234 (1985) . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Canutillo Indep. School Dist. v. Leija,
101 F.3d 393 (5th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 8
Coll. Sav. Bank v.
Prepaid Postsecondary Educ. Expense Bd.,
527 U.S. 666 (1999) . . . . . . . . . . . . . . . . . . . . . . . passim
Delahoussaye v. City of New Iberia,
937 F.2d 144 (5th Cir. 1991)  . . . . . . . . . . . . . . . . . . . . 10
Edelman v. Jordan,
415 U.S. 651 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Employees v.
Missouri Dept. of Public Health and Welfare,
411 U.S. 279 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. Maritime Comm’n v.
South Carolina Ports Auth.,
535 U.S. 743 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

viii
Cited Authorities
Page
Franchise Tax Bd. of Cal. v. Hyatt,
139 S. Ct. 1485 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 22
Franklin v. Gwinnett Cty. Pub. Sch.,
503 U.S. 60 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Gebser v. Lago Vista Indep. Sch. Dist.,
524 U.S. 274 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
In re Ayers,
123 U.S. 443 (1887) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
In re Creative Goldsmiths of Washington, D.C.,
Inc.,
119 F.3d 1140 (4th Cir. 1997)  . . . . . . . . . . . . . . . . . . . . 8
Miller v. Texas Tech University Health Sciences
Center,
421 F.3d 342 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . 4, 11
Mitchell v. Forsyth,
472 U.S. 511 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
National Federation of Independent Business v.
Sebelius,
567 U.S. 519 (2012)  . . . . . . . . . . . . . . . . . . . . . . . passim
O’Connor v. Davis,
126 F.3d 112 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 27

ix
Cited Authorities
Page
Pace v. Bogalusa City School Board,
403 F.3d 272 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . 4, 11
Parden v. Terminal Railway of Alabama Docks,
377 U.S. 184 (1964)  . . . . . . . . . . . . . . . . . .  11, 12, 13, 14
Pederson v. La. State Univ.,
213 F.3d 858 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 10
Pennsylvania v. Union Gas Co.,
491 U.S. 1 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
Perry v. Sindermann,
408 U.S. 593 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Puerto Rico Aqueduct & Sewer Auth. v.
Metcalf & Eddy, Inc.,
506 U.S. 139 (1993)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Raj v. La. State Univ.,
714 F.3d 322 (5th Cir. 2013)  . . . . . . . . . . . . . . . . . . . . . 3
Rosa H. v.
San Elizario Independent School Dist.,
106 F.3d 648 (5th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 8
Rowinsky v. Bryan Independent School District,
80 F.3d 1006 (5th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 8

x
Cited Authorities
Page
Seminole Tribe of Fla. v. Fla.,
517 U.S. 44 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . passim
South Dakota v. Dole,
483 U.S. 203 (1987) . . . . . . . . . . . . . . . . . . . . . 24, 25, 26
Welch v. Texas Department of Highways and
Public Transportation,
483 U.S. 468 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Statutes and Other Authorities
U.S. Const., Art. I  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., Art. I, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
U.S. Const., Art. I, § 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Const., Art. I, § 8, cl. 1  . . . . . . . . . . . . . . . . . . . . 1, 24
U.S. Const., Art. I, § 12 . . . . . . . . . . . . . . . . . . . . . . . . . . 27
U.S. Const., Art. I, § 13 . . . . . . . . . . . . . . . . . . . . . . . . . . 27
U.S. Const., Art. III . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 15
U.S. Const. Amend. X  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
U.S. Const. Amend. XI  . . . . . . . . . . . . . . . . . . . . . . passim

xi
Cited Authorities
Page
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . . 7, 8, 9
7 U.S.C. § 301  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
10 U.S.C. § 2031  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
20 U.S.C. § 1070  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
20 U.S.C. § 1681  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
20 U.S.C. § 1681(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2403(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000d-7  . . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 2000d-7(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
La. R.S 13:5106 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
La. R.S. 13:5106(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Federalist No. 30  . . . . . . . . . . . . . . . . . . . . . . . . . . 21

xii
Cited Authorities
Page
The Federalist No. 81  . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Baker, L., The Spending Power After NFIB v.
Sebelius, 37 Harv. J.L. & Pub. Pol’y 71 (2014)  . . . . 24
Pasachoff, E., Conditional Spending after NFIB
v. Sebelius: The example of Federal Education
Law, 62 AM. U. L. REV. 577 (2013) . . . . . . . . . . . . . 24

1
The Board of Super visors of Louisiana State
University and Agricultural and Mechanical College
(“LSU”) respectfully petitions for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Fifth Circuit entered on May 12, 2020 in
No. 19-30670.
OPINIONS BELOW
The opinion of the court of appeals is reported at 959
F.3d 178. Pet. App. 1a–12a. The opinion of the district
court is reported at 401 F. Supp. 3d 742. Pet. App. 13a–56a.
BASIS FOR JURISDICTION
The United States Court of Appeals for the Fifth
Circuit entered judgment on May 12, 2020 in No. 19-30670.
This Court has jurisdiction to grant certiorari under 28
U.S.C. § 1254(a). This Petition for a Writ of Certiorari is
timely under the Court’s March 19, 2020 Order extending
the deadline to file a petition for a writ of certiorari to 150
days from the date of the lower court judgment.
Petitioner is challenging the constitutionality of
the Civil Rights Remedies Equalization Act, 42 U.S.C.
§ 2000d-7. Accordingly, 28 U.S.C. § 2403(a) may apply. The
court of appeals did not certify to the Attorney General
the fact that the constitutionality of an Act of Congress
was drawn into question pursuant to 28 U.S.C. § 2403(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The appendix reproduces the Constitution’s Spending
Clause, U.S. Const. Art. I, § 8, cl. 1, and the Eleventh

2
Amendment, U.S. Const. amend. XI. It also reproduces the
pertinent part of Title IX of the Educational Amendments
of 1972, 20 U.S.C.A. § 1681(a), and Section 1003 of the
Rehabilitation Act Amendments of 1986, 42 U.S.C.A.
§ 2000d-7.
STATEMENT
Respondents, Stephen Gruver and Rae Ann Gruver,
individually and on behalf of Maxwell R. Gruver, filed
this civil action in United States District Court for the
Middle District of Louisiana on August 16, 2018 against
multiple defendants, including LSU, seeking damages
exceeding $25 million for the fraternity hazing death of
Maxwell Gruver, an LSU student pledging the Phi Delta
Theta fraternity.
Respondents assert a novel claim for damages against
LSU pursuant to Title IX of the Educational Amendments
of 1972, 20 U.S.C. § 1681, et seq. (“Title IX”), alleging
Mr. Gruver’s death was caused by intentional gender
discrimination by LSU. No allegation is made that an LSU
representative or employee participated in the hazing or
was present when the tragic death occurred. Respondents
allege that LSU engaged in gender-based discriminatory
enforcement of fraternity and sorority anti-hazing policies
that created risk of harm to Mr. Gruver. See Pet. App. 15a.
Respondents also assert various causes of action against
LSU and other defendants under Louisiana state law.
The other defendants include Mr. Gruver’s fraternity,
Phi Delta Theta, and individual fraternity members, who
Respondents allege are liable for Mr. Gruver’s wrongful
death under Louisiana state law tort theories.

3
The United States District Court for the Middle District
of Louisiana exercised federal question jurisdiction under
28 U.S.C. § 1331 over this civil action asserting private
claims for damages brought under Title IX.
In response to the suit, LSU moved to dismiss
Respondents’ Title IX and state law claims based on
Eleventh Amendment immunity.1 LSU is an arm of
the State of Louisiana. Raj v. La. State Univ., 714 F.3d
322, 328 (5th Cir. 2013). Neither LSU nor the State of
Louisiana has consented to suit in federal court. The State
of Louisiana, by statute, has unambiguously expressed
the State’s intent to preserve its sovereign immunity, as
guaranteed by the Eleventh Amendment’s ratification of
constitutional dual sovereignty. See La. R.S. 13:5106(a)
(“No suit against the state or a state agency or political
subdivision shall be instituted in any court other than
a Louisiana state court.”). Louisiana has not waived
Eleventh Amendment immunity by state constitutional
provision or state statute. LSU argued in its motion that
Section 1003 of the Rehabilitation Act Amendments of
1986, 42 U.S.C.A. § 2000d-7, which forces Title IX funding
recipients to waive Eleventh Amendment immunity, is an
unconstitutional forced-waiver of the state’s sovereign
immunity.
The District Court granted in part and denied in
part LSU’s motion. Pet. App. 13a–56. The District Court
1. LSU also moved to dismiss Respondents’ Title IX claim
pursuant to Federal Rule of Civil Procedure 12(b)(6). The trial
court denied LSU’s motion to dismiss for failure to state a claim
upon which relief may be granted. Pet. App. 38a–56a. The trial
court’s ruling on the Rule 12(b)(6) motion is not at issue in this
petition.

4
granted LSU’s motion as to Respondents’ state law
negligence claims against LSU. Pet. App. 56a. The District
Court denied protecting LSU’s immunity to suit finding
that LSU constructively waived Eleventh Amendment
immunity by accepting federal funds based on the Fifth
Circuit’s prior decisions in Pace v. Bogalusa City School
Board, 403 F.3d 272 (5th Cir. 2005) and Miller v. Texas
Tech University Health Sciences Center, 421 F.3d 342 (5th
Cir. 2005). Pet. App. 23a–38a.
LSU timely filed a Notice of Appeal seeking review
of the District Court’s ruling denying LSU’s motion to
dismiss premised on Eleventh Amendment immunity
pursuant to the Collateral Order Doctrine. Mitchell v.
Forsyth, 472 U.S. 511 (1985). On May 12, 2020, the Fifth
Circuit issued its Opinion affirming the District Court and
overruling LSU’s Eleventh Amendment immunity to the
Title IX private right of action asserted by Mr. Gruver’s
parents. Pet. App. 1a–12a.
REASONS FOR GRANTING THE PETITION
I.

CONGRESS CANNOT USE ARTICLE I SPENDING
POWER TO EXPAND FEDERAL JUDICIAL
POW ER OV ER T H E STAT E S T H ROUGH
ABROGATION OR CONSTRUCTIVE WAIVERS
OF THE STATES’ ELEVENTH AMENDMENT
IMMUNITY.

“The Framers created a Federal Government of
limited powers, and assigned to this Court the duty
of enforcing those limits.” National Federation of
Independent Business v. Sebelius, 567 U.S. 519, 588 (2012).
Pursuant to the “unconstitutional conditions” doctrine,

5
the federal government may not place a condition on the
receipt of a benefit or subsidy that infringes upon the
recipient’s constitutionally protected rights, even if the
government has no obligation to offer the benefit in the
first instance. See Perry v. Sindermann, 408 U.S. 593,
597 (1972). This Petition for a Writ of Certiorari asks
this Court to determine that the Civil Rights Remedies
Equalization Act (“CREA”), 42 U.S.C. § 2000d-7, imposes
an unconstitutional condition on a recipient of federal
education funds.
This Court has not reviewed whether Congress
can invoke Article I Spending Power, which empowers
Congress to enact Title IX, to condition, require or force
a state’s waiver of Eleventh Amendment immunity to suit
in federal court brought by private individuals based on a
state university’s receipt of federal funds to support public
education. This Court has never ruled that Congress can
use Article I Spending Power to directly regulate the
states’ Eleventh Amendment sovereign immunity. This
Court has never ruled that Congress can use federal funds
to expand federal judicial power over the states and direct
how the states govern their own sovereign immunity with
“conditions.”
In the absence of such guidance, lower courts are
ubiquitously failing to apply and enforce this Court’s
decisions applicable to the Eleventh Amendment that
should otherwise support LSU’s Eleventh Amendment
immunity to this Title IX hazing suit. These erroneous
rulings are eroding, and will continue to erode, state
sovereignty contrary to the states’ ratification of the
shared balance of federal and state power guaranteed
by the Constitution. Bit by bit, an important foundation

6
of constitutional federalism is being eroded. This Court’s
judicial review is warranted and necessary to protect
state sovereign immunity that comports with the text
and original understanding of the Constitution and this
Court’s decisions that are contrary to the Fifth Circuit’s
rejection of LSU’s Eleventh Amendment immunity in
this action.
A.

Article I Spending Power cannot be used by
Congress to expand federal judicial power over
the states through abrogation.

“The very object and purpose of the 11th Amendment
[is] to prevent the indignity of subjecting a State to the
coercive process of judicial tribunals at the instance of
private parties.” In re Ayers, 123 U.S. 443, 505 (1887);
Puerto Rico Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 146 (1993). Although Eleventh
Amendment immunity is not absolute, this Court has
“recognized two circumstances in which an individual
may sue a State” in federal court. Coll. Sav. Bank v.
Prepaid Postsecondary Educ. Expense Bd., 527 U.S.
666, 670 (1999). Congress, in limited circumstances, may
abrogate Eleventh Amendment immunity and authorize a
suit against a state “in the exercise of its power to enforce
the Fourteenth Amendment.” Id. As discussed in Section
I.B, infra, states may also knowingly and voluntarily waive
sovereign immunity by expressly consenting to suit.
Title IX of the Educational Amendments of 1972, 20
U.S.C. §§ 1681–88, prohibits gender discrimination in
educational institutions, whether public or private, that
receive any federal funding. When enacted by Congress in
1972, Title IX did not originally require a funding recipient

7
to forfeit Eleventh Amendment immunity as a condition
precedent to receiving federal funds for education. The
non-discrimination condition tethered to the receipt of
federal funds in Title IX had no adverse impact on a state’s
Eleventh Amendment immunity for states that received
federal funds to assist educating the nation’s citizens.
The statute relied upon by the Fifth Circuit to
overrule LSU’s Eleventh Amendment immunity to this
Title IX hazing suit was enacted fourteen years after Title
IX was enacted. In 1986, Congress enacted CREA as an
abrogation of sovereign immunity on any state funding
recipient for even alleged, but ultimately unproven,
violations of Title IX:
A State shall not be immune under the Eleventh
Amendment of the Constitution of the United
States from suit in Federal court for a violation
of . . . Title IX of the Education Amendments of
1972. . . or the provisions of any other Federal
statute prohibiting discrimination of Federal
financial assistance.
42 U.S.C.A. § 2000d-7(a)(1).
Title IX was not enacted by Congress as Fourteenth
Amendment enabling legislation. Title IX was enacted to
ensure that recipients of federal education funds did not use
those resources to support gender-based discriminatory
practices and “to provide individual citizens effective
protections against those practices.” Gebser v. Lago
Vista Indep. Sch. Dist., 524 U.S. 274, 286 (1998). Title
IX does not regulate the states as states—the necessary
target of Fourteenth Amendment legislation. Instead,

8
Title IX regulates federal fund recipients, irrespective of
whether a recipient of federal funds is private or public.
The Fifth Circuit has correctly ruled that Article I
Spending Power was the operative constitutional power
authorizing Congress to enact Title IX in 1972. Rosa
H. v. San Elizario Independent School Dist., 106 F.3d
648,654 (5th Cir. 1997); Canutillo Indep. School Dist. v.
Leija, 101 F.3d 393,398 (5th Cir. 1996); Rowinsky v. Bryan
Independent School District, 80 F.3d 1006, 1013 n. 14 (5th
Cir. 1996). The enactment of CREA fourteen years after
Title IX was based on the same power used to enact Title
IX. “We will not presume that Congress intended to enact
a law under a general Fourteenth Amendment power to
remedy an unspecified violation of rights when a specific,
substantive Article I power clearly enabled the law.” In re
Creative Goldsmiths of Washington, D.C., Inc., 119 F.3d
1140, 1146 (4th Cir. 1997).
This Court’s prior decisions applying the Eleventh
Amendment to federal judicial power clearly hold that
Congress cannot invoke Article I Spending Power to
abrogate, regulate, condition, require, or force a waiver
of sovereign immunity based on a state’s receipt of federal
funds used by a state university for higher education.
“The Eleventh Amendment restricts the judicial
power under Article III, and Article I cannot be used
to circumvent the constitutional limitations placed upon
federal jurisdiction.” Seminole Tribe of Fla. v. Fla., 517
U.S. 44, 45 (1996). In 1996, the Court in Seminole Tribe held
that Congress cannot invoke legislative power provided
by the Indian Commerce Clause of Art. I, § 8 of the U.S.
Constitution to abrogate a state’s Eleventh Amendment
immunity to suit in federal court. Id. at 75. Several years

9
earlier, in Pennsylvania v. Union Gas Co., 491 U.S. 1
(1989), a plurality of this Court found that the Commerce
Clause granted Congress the power to abrogate state
sovereign immunity. Finding that “the plurality opinion
in Union Gas allows no principled distinction in favor
of States to be drawn between the Indian Commerce
Clause and the Interstate Commerce Clause,” this Court
overruled Union Gas and held that Union Gas “deviated
sharply from our established federalism jurisprudence”
and “never before the decision in Union Gas had we
suggested that the bounds of Article III could be expanded
by Congress pursuant to any constitutional provision
other than the Fourteenth Amendment.” Seminole Tribe
of Fla., 517 U.S. at 65.
The states’ retention of sovereign immunity when
the Constitution was originally ratified, as reaffirmed by
the Eleventh Amendment, does not permit distinctions
to be made between any Article I power regarding
Congressional power to abrogate Eleventh Amendment
immunity in expanding federal judicial power over the
states. Overruling Union Gas was central to the holding
of Seminole Tribe because this Court did not find any
principled distinction could be made between various
Article I powers in light of Article III’s limitation on
the exercise of federal juridical power. Id. at 72–73. By
refusing to distinguish Article I powers as a basis for
abrogation, the Court’s Seminole Tribe decision foreclosed
Congress’s power to abrogate sovereign immunity under
any Article I power, including the Spending Power used
by Congress to enact Title IX and CREA.

10
B. Article I Spending Power cannot be used
to expand federal judicial power through
conditions created by Congress to regulate
sovereign immunity that procure “constructive
waivers” of sovereign immunity from the
states.
Aside from Congressional abrogation of sovereign
immunity under the Fourteenth Amendment, a state may
waive its sovereign immunity by expressly consenting to
suit. Because waiver is the “intentional relinquishment
or abandonment of a known right or privilege,” a state’s
waiver of sovereign immunity must be both knowing and
voluntary. See Coll. Sav. Bank, 527 U.S. at 682. “The
decision to waive that immunity, however, is altogether
voluntary on the part of the sovereignty.” Id at. 675.
Sovereign immunity is no less protected than other
constitutionally protected rights, and courts are to
“indulge every reasonable presumption against waiver of
fundamental constitutional rights.” Id. at 682. Louisiana
has not waived its Eleventh Amendment immunity by state
constitutional provision or statute. See, e.g., Delahoussaye
v. City of New Iberia, 937 F.2d 144, 147 (5th Cir. 1991).
In order to breathe constitutional validity into CREA
in light of Seminole Tribe, the Fifth Circuit in this case
erroneously embraced the legal fiction that CREA is
somehow a constitutional exercise of Congressional
Spending Power under which a state constructively
waives sovereign immunity as a condition precedent in
exchange for accepting federal funds. Pet. App. 3a–4a;
Pederson v. La. State Univ., 213 F.3d 858 (5th Cir. 2000)
(“Congress has successfully codified a statute which
clearly, unambiguously, and unequivocally conditions

11
receipt of federal funds under Title IX on the State’s
waiver of Eleventh Amendment immunity.”) See also Pace
v. Bogalusa City Sch. Bd., 403 F.3d 272 (5th Cir. 2005) and
Miller v. Texas Tech University Health Sciences Center,
421 F.3d 342, 348 (5th Cir. 2005).
The “constructive waiver” of sovereign immunity
applied here to LSU by the Fifth Circuit is clearly
contrary to the Constitution and this Court’s rulings
that reject “constructive waiver” as a viable taking of
sovereign immunity by Congressional “conditions,” even
if clearly expressed. The Eleventh Amendment amended
the original Constitution, including Article I, expressly
to reserve state sovereign immunity in federal court.
See Seminole Tribe of Fla., 517 U.S. at 72. A constructive
nullification of the Eleventh Amendment occurs if
Congress conditions returning federal funds to the states
through appropriations only if the states surrender
attributes of sovereignty expressly retained by the states
in the Constitution.
Careful review of this Court’s applicable decisions
establishes that the “constructive waiver” theory used by
the Fifth Circuit to overrule LSU’s Eleventh Amendment
immunity from a Title IX private action in federal court
is not constitutionally permissible. The legal fiction of a
“constructive waiver” of sovereign immunity found limited
loose footing in Parden v. Terminal Railway of Alabama
Docks, 377 U.S. 184 (1964). Parden was greatly limited
in application by pre-Seminole Tribe jurisprudence and
lacks any constitutional life after Seminole Tribe.
In Parden, the State of Alabama operated a for-profit,
state-owned railroad for twenty years. By operating the

12
railroad in interstate commerce, Alabama effectively
transcended the usual realm of state authority by
voluntarily entering the private market, a market in which
all employers were subject to the strictures passed by
Congress. The finding of a waiver had little to do with any
statute, but rather resulted chiefly from the actions of the
state in entering a private market. The limited holding of
the Court was that, based on these specific facts, Alabama
should be subject to the same requirements as the other
private participants in the private market, one of which
was that all market actors’ consent to suit in federal court.
Id. at 192.
Subsequent decisions from this Court limit Parden
“constructive waiver” to its specific facts. First, in
Employees v. Missouri Dept. of Public Health and
Welfare, 411 U.S. 279 (1973), the Court declined to extend
Parden to circumstances in which a state was operating a
non-profit hospital facility as a basis to find “constructive
waiver.” The next year, in Edelman v. Jordan, 415
U.S. 651 (1974), the Court refused to find Parden-style
consent when Illinois participated in a federal program
by agreeing to administer federal and state funds in
accordance with federal law. Specifically, the Court found
that “constructive consent is not a doctrine commonly
associated with the surrender of constitutional rights,
and we see no place for it here.” Id. at 673. As a result,
Edelman overruled Parden insofar as it spoke to the need
for express “waiver” language in a state statute before
finding any sort of waiver-language, which was clearly
lacking in Parden.
Ten years later in Atascadero State Hospital v.
Scanlon, 473 U.S. 234, 239–40 (1985) and twelve years

13
later in Welch v. Texas Department of Highways and
Public Transportation, 483 U.S. 468, 478 (1987), the
Court explained that the only means by which a state may
effectuate a waiver of Eleventh Amendment immunity is
by:
a state statute or constitutional provision, or by
otherwise waiving its immunity to suit in the
context of a particular federal program. In each
of these situations, we require an unequivocal
indication that the State intends to consent to
federal jurisdiction that otherwise would be
barred by the Eleventh Amendment.
Atascadero, 473 U.S. at 238 n.1. Hence, by the time
Welch was decided in 1987, this Court viewed the “forced
waiver” or “constructive waiver” rule of Parden as the
functional equivalent of, or synonymous with, “abrogation”
or a unilateral taking by Congress of state sovereign
immunity. No Supreme Court case after Parden has found
Parden-type consent or constructive waiver. As a result,
this Court, until Union Gas, was never faced with the issue
of whether such compelled waivers are constitutionally
permissible.
In Union Gas v. Pennsylvania, 491 U.S. 1, 14 (1989),
which was overruled by Seminole Tribe, Justice Brennan,
writing for the plurality, borrowed from the constitutional
notion of waiver (albeit compelled) and misapplied those
principles with respect to abrogation, confusing the
distinction between “waiver” and “abrogation.” The Union
Gas opinion weakly reasoned that because the Parden
Court recognized that Alabama could waive or surrender
its sovereign immunity, such a finding was tantamount to

14
holding that Congress could either take or condition the
immunity by statute or require its waiver as a condition
of regulation under Article I commerce power. Id.
The problem with Justice Brennan’s flawed reasoning,
as identified by Chief Justice Rehnquist in Seminole Tribe,
was that “constructive waiver” from the state’s end was
no longer viable in the context of Parden-type regulation.
Seminole Tribe of Fla., 517 U.S. at 65. Moreover, because
the State had surrendered sovereign immunity in Parden,
there was no opportunity for the Court to test Congress’
abrogation power in Parden because there was nothing
to abrogate under the facts of Parden. As demonstrated
above, the plurality decision in Union Gas and the
Fifth Circuit’s application of “constructive waiver” of
sovereign immunity to Title IX suits in federal court is
based wholly on a fiction authorizing Congress to displace
state sovereign immunity with “conditions” created by
Congress as an exercise of Article I power.
The Fifth Circuit’s “constructive waiver” end run
around unconstitutional abrogation as applied to Title
IX and CREA, attempts to engineer the result of Union
Gas, which was overruled by Seminole Tribe, but with
a different and troublesome twist. Acknowledging
that Congressional abrogation under A rticle I is
constitutionally impermissible, the label of “waiver” is
placed on CREA in an attempt to cleanse the statute
of its clear unconstitutionality as an abrogation statute.
The balance of constitutional power in this country is
not so precarious as to be based on fictions derived from
trigger words. Whether the divestiture of sovereign
immunity comes from abrogation or Congress’ “terms of
doing business” with the states, the divestiture has one

15
source—Congress—and Congress’ power to create such a
divestiture is measured against the limitations of Article I,
Article III, and the Eleventh Amendment. For the waiver
to be free of constitutional scrutiny, it must be free of
Congressional involvement. Whether viewed through the
lens of abrogation or compelled waiver, Congress’ power
is exerted and exertion of such power is unconstitutional.
The “constructive waiver” found by the Fifth Circuit
applicable to LSU in this action is clearly at odds with
this Court’s decision in Seminole Tribe. In Seminole
Tribe, the government argued that because Congress in
the Indian Gaming Act had bestowed a benefit on Florida
that it otherwise would not have had—some measure of
authority over gaming on Indian lands—Congress was
free to condition that benefit on the elimination of state
sovereign immunity for violations under the Act. Seminole
Tribe, 517 U.S. at 58. In other words, the government
argued that when Florida decided to exercise regulatory
authority over gaming lands in its state, it waived
sovereign immunity. Chief Justice Rehnquist rejected
this argument and wrote that “[t]he Eleventh Amendment
immunity may not be lifted by Congress unilaterally
deciding that it will be replaced by grant of some other
authority.” Id. at 58–59.
I n Se min ol e Tr i be, t he Cou r t su m m a r i z e d
jurisprudence prior to Union Gas as restricting
Congressional expansion of Article III power only to
defined Fourteenth Amendment power. Id. at 65. The
language in Seminole Tribe cannot be read to permit
Congress to manipulate an invalid “abrogation” clause
and euchre a backdoor waiver from the states. In his
dissent in Union Gas, which was cited with approval by the

16
Seminole Tribe decision, Justice Scalia cogently explained
why abrogation and conditional waivers are the same for
purposes of constitutional analysis:
At bottom, then, to acknowledge that the
Federal Government can make the waiver of
state sovereign immunity a condition to the
State’s action in a field that Congress has
authority to regulate is substantially the same
as acknowledging that the Federal Government
can eliminate state sovereignty in the exercise
of its Article I powers -- that is, to adopt the
very principle I have just rejected. There is little
more than a verbal distinction between saying
that Congress can make the Commonwealth
of Pennsylvania liable to private parties for
hazardous waste clean-up costs on sites that
the Commonwealth owns and operates, and
saying the same thing but adding at the end “if
the Commonwealth chooses to own and operate
them.” If state sovereign immunity has any
reality, it must mean more than this.
Pennsylvania v. Union Gas Co., 491 U.S. 1, 44 (1989)
(Scalia, J., concurring in part and dissenting in part).
This Court in College Savings Bank v. Florida Prepaid
Postsecondary Education Expense Board, 527 U.S. 666
(1999), held that abrogation and “forced waiver” statutes, in
the application of a state’s Eleventh Amendment immunity,
are subject to the same constitutional limitations under
Congress’s Article I Commerce Clause power because:
Recognizing a congressional power to extract
constructive waivers of sovereign immunity

17
through the exercise of Article I powers would
also, as a practical matter, permit Congress
to circumvent the anti-abrogation holding of
Seminole Tribe. Forced waiver and abrogation
are not even different sides of the same coin—
they are the same side of the same coin.
Id. at 683 (emphasis added).
The College Savings Court correctly recognized that
“State sovereign immunity, no less than the right to trial
by jury in criminal cases, is constitutionally protected.”
Id. at 682. This holding means that what cannot be done to
coerce individual citizens to waive their rights cannot be
done to coerce a state to waive its sovereignty. The College
Savings decision illustrated the absurdity of a constructive
or forced waiver applied to a criminal prosecution:
For example, imagine if Congress amended the
securities laws to provide with unmistakable
clarity that anyone committing fraud in
connection w ith the buying or selling of
securities in interstate commerce would not
be entitled to a jury in any federal criminal
prosecution of such fraud. Would persons
engaging in securities fraud after the adoption
of such an amendment be deemed to have
“constructively waived” their constitutionally
protected rights to trial by jury in criminal
cases? After all, the trading of securities is
not so vital an activity that any one person’s
decision to trade cannot be regarded as a
voluntary choice. The answer, of course, is no.
Id. at 681–82.

18
In the majority opinion, Justice Scalia recognized, in
dicta, that certain distinctions have been made between
Congress’s ability to use the Spending Power to regulate
states indirectly and Congressional Power under the
Commerce Clause. Id. at 683. Justice Scalia was careful,
however, to note in additional dicta that Congress’s ability
to indirectly regulate the states using financial conditions
under the Spender Power is not unlimited—an issue that
was not presented in College Savings. Id. Here, CREA’s
authority over LSU’s sovereign immunity is not merely an
indirect encroachment of implied state Tenth Amendment
power—Congress is directly and unconstitutionally
regulating Louisiana’s express Eleventh Amendment
power and immunity.
The conditional waiver theory adopted by the
Fifth Circuit and applied to LSU in this case is not
constitutionally viable. The governance and regulation
of state sovereignty by Congress in CREA is a unilateral
decision of Congress—not a collective enactment of
legislation by Congress and the states, or any agreement by
the states whatsoever. The words enacted by Congress—
“No state shall be immune ….”—cannot be reasonably
construed as anything other than abrogating sovereign
immunity. See Franklin v. Gwinnett Cty. Pub. Sch., 503
U.S. 60, 72 (1992) (“In the Rehabilitation Act Amendments
of 1986, 100 Stat. 1845, 42 U.S.C. § 2000d–7, Congress
abrogated the States’ Eleventh Amendment immunity
under Title IX, Title VI, § 504 of the Rehabilitation Act of
1973, and the Age Discrimination Act of 1975”). Congress
“abrogating” a right of sovereignty is by definition “doing
away” with a right of sovereignty. Under federal law, “[w]
aiver is the voluntary, intentional relinquishment of a
known right.” Coll. Sav. Bank, 527 U.S. at 682. If CREA

19
unilaterally stripped the states of Eleventh Amendment
immunity in the exercise of Spending Power, the states
waived nothing by accepting federal funds. A state cannot
unambiguously waive a right that does not exist or a right
that has been abrogated.
C.

Federal funding of higher education should not
be viewed as a “gift” in the context of Congress
regulating state sovereign immunity as a
constitutional condition imposed on a “gift.”

Cases that have upheld the exercise of Spending
Power to enforce conditions imposed by Congress other
than sovereign immunity often point to the notion that
funds dispensed by the federal government to the states
are “gifts.” The Fifth Circuit did so here: “LSU is free
to avoid Title IX obligations by declining federal funds
without threatening other state agencies’ funding.” Pet.
App. 12a.
If surrendering constitutional sovereignty is a
permissible forced condition for receiving a “gift,”
limited federal funding of public higher education is not
properly characterized as a “gift.” To be clear, LSU does
not contend it is immune from the non-discrimination
mandates of Title IX. LSU does not contend that it is
immune from Title IX’s federal enforcement mechanism
and regulations implemented by the Office of Civil Rights,
the statutorily appointed federal agency vested with
authority to enforce Title IX, which includes terminating
federal funds for intentional violations of Title IX. LSU
does not contend Respondents have no right to sue LSU
in state court. However, the question is not whether LSU
is governed by Title IX, but whether, by whom, and where

20
the statute can be enforced in a court of law consistent with
limitations on federal judicial power that were expressly
retained by the states.
Federal financial support of public education provided
by LSU is not a “gift” to the state of Louisiana or LSU.
State governments obtain funding for public education
through local/state taxation, student paid tuition and fees,
and directly and indirectly through certain appropriations
made by the federal government. In the matter of higher
education, some federal appropriations go directly to
public universities as federal research grants. A federal
research appropriation is not a gift to the states. The
universities perform valuable research benefiting the
national interest in exchange for the grant. Some federal
education appropriations go indirectly to state universities
in the form of Pell grants provided to eligible students
from low income backgrounds and GI benefits provided
to eligible military servicemen who are also students. In
return, the state universities educate the recipients of
these federal funds. Again, not something for nothing.
Beyond the military academies, all public higher
education in the United States is provided by the states.
The United States does not provide public education to
the citizens of Louisiana. Louisiana provides that service.
Without state and local public education, there is no public
higher education in the United States generally available
to the citizens. To treat federal funding mechanisms
to state public universities as “gifts” from the federal
government ignores the reality that the public service of
education and research is provided as consideration for the
limited federal funding of public universities such as LSU.

21
And the nation, as a whole, benefits. As Alexander
Hamilton recognized, the taxing power provided to
Congress by the states and the subsequent spending of
money benefitting the citizens of the states is not just
a benefit to the states, “we are sure the resources of
the community, in their full extent, will be brought into
activity for the benefit of the Union.” The Federalist No.
30 (Alexander Hamilton). In the original interpretation
of Spending Power, money from the national government
extended to the states was never viewed as a gift or
charity. Alexander Hamilton wrote:
Money is, with propriety, considered as the
vital principle of the body politic; as that
which sustains its life and motion, and enables
it to perform its most essential functions.
A complete power, therefore, to procure a
regular and adequate supply of it, as far as the
resources of the community will permit, may
be regarded as an indispensable ingredient in
every constitution. From a deficiency in this
particular, one of two evils must ensue; either
the people must be subjected to continual
plunder, as a substitute for a more eligible
mode of supplying the public wants, or the
government must sink into a fatal atrophy, and,
in a short course of time, perish.
Id.
Under the Eleventh Amendment, the right of a state,
as a dual sovereign, to control its own public treasury and
payment of alleged debts is retained by the states. The
Framers of the Constitution recognized that governmental

22
authority over its treasury is the lifeblood of government,
including state government. See Franchise Tax Bd. of
Cal. v. Hyatt, 139 S.Ct. 1485, 1493 (2019) (“An integral
component” of the States’ sovereignty was “their immunity
from private suits.”); Fed. Maritime Comm’n v. South
Carolina Ports Auth., 535 U.S. 743, 751–752 (2002); Alden
v. Maine, 527 U.S. 706, 713 (1999) (“[A]s the Constitution’s
structure, its history, and the authoritative interpretations
by this Court make clear, the States’ immunity from suit is
a fundamental aspect of the sovereignty which the States
enjoyed before the ratification of the Constitution, and
which they retain today ...”).
In Article I, the states gave Congress the authority to
tax citizens of the states and spend the proceeds of those
taxes maintained by the federal treasury. At the same
time, the states also retained sovereign immunity to suit
in federal court. These principles are neither mutually
exclusive nor inconsistent to the sovereignty of either
the national government or the states. The states never
gave Congress the authority to limit retained sovereign
immunity as a condition of receiving funds from the federal
government. In Federalist No. 81, Alexander Hamilton
wrote that a state’s sovereignty should not be the price
for federal funding:
The circumstances which are necessary to
produce an alienation of State sovereignty were
discussed in considering the article of taxation,
and need not be repeated here. A recurrence to
the principles there established will satisfy us,
that there is no color to pretend that the State
governments would, by the adoption of that
plan, be divested of the privilege of paying

23
their own debts in their own way, free from
every constraint but that which flows from
the obligations of good faith. The contracts
between a nation and individuals are only
binding on the conscience of the sovereign, and
have no pretensions to a compulsive force.’)
The Federalist No. 81 (Alexander Hamilton) (Emphasis
supplied).
The legal fiction of federal funds used to support
public higher education as a “gift” for “sovereignty”
tradeoff should not drive the outcome here based on the
actual realities of administering public higher education
and the originalist view that federal funds dispensed to
the states are not constraints that can be used to regulate
or eliminate state sovereign immunity to suits in federal
court brought by private individuals.
II. EVEN IF A REQUIRED WAIVER BY CONGRESS
CAN BE PERMISSIBLE UNDER ARTICLE I
SPENDING POWER, CONGRESS’ REQUIRED
WAIVER OF LSU’S ELEVENTH AMENDMENT
I M M U N I T Y T O A T I T L E I X PR I VAT E
ACTION IS NOT “CLEAR NOTICE” AND IS
UNCONSTITUTIONALLY COERCIVE.
Even if Congress is not prohibited per se from
extracting a “constructive waiver” of LSU’s Eleventh
Amendment immunity without violating the Eleventh
Amendment, the extraction of a constructive waiver from
LSU under Title IX is an unconstitutionally coercive
exercise of Article I Spending Power. The Constitution
empowers Congress to “lay and collect taxes, duties,

24
imposts and excises, to pay the debts and provide for
the common defense and general welfare of the United
States.” U.S. Const. Art. I, § 8, cl. 1. It is understood that
“[i]ncident to this power, Congress may attach conditions
on the receipt of federal funds.” South Dakota v. Dole, 483
U.S. 203, 206 (1987).
However, as made clear in National Federation of
Independent Business v. Sebelius, 567 U.S. 519 (2012),
this power is limited. The Spending Clause doctrine
cannot permit Congress to impose any conditions it
chooses on its offers of federal funds to the States on the
simplistic ground that if a state that not like the conditions,
it can always decline the offer. Such a doctrine would strip
all meaning from the Constitution’s notion of a federal
government of limited, enumerated powers. Sebelius
crafted a “substantially altered doctrine” that should be
applied to the Fifth Circuit’s erroneous review of CREA
for constitutionality. See Baker, L., The Spending Power
After NFIB v. Sebelius, 37 Harv. J.L. & Pub. Pol’y 71,
73 (2014). At least one commentator has similarly argued
that the decisions of the Fifth Circuit related to CREA
are ripe for reconsideration after Sebelius. Pasachoff,
E., Conditional Spending after NFIB v. Sebelius: The
example of Federal Education Law, 62 A m. U. L. Rev.
577, 631 (2013).
In Dole, this Court held that Congress’ act in
conditioning a grant of federal highway funds to South
Dakota on the state’s adoption of a minimum drinking age
of 21 was a valid exercise of Congress’ Spending Power,
not limited by the Tenth Amendment. 483 U.S. at 212. This
Court identified several restrictions on the Congressional
Spending Power. First, conditions attached by Congress
on the expenditure of federal funds must promote the

25
general welfare, and not be in the service of narrow and
private interests. Id. at 207. Second, conditions on the state
receipt of federal funds must be unambiguous, and enable
“the States to exercise their choice knowingly, cognizant
of the consequences of their participation.” Id. Third,
the Court suggested that conditions on federal grants
might be illegitimate if they are unrelated to the federal
interest in particular national projects or programs.” Id.
Fourth, no condition attached to receipt of federal funds
may violate other provisions of the Constitution. Id. at 208.
The condition of waiving sovereign immunity in CREA
violates the Eleventh Amendment, for reasons discussed
above, and is per se unconstitutional under the fourth
restriction articulated in Dole.
Aside from prohibiting unconstitutional conditions,
this Court in Dole cautioned that “in some circumstances
the financial inducement [to comply with a condition
imposed upon the receipt of federal funds] offered by
Congress might be so coercive as to pass the point at
which pressure turns into compulsion.” Id. at 208. Thus,
while Congress may use its Spending Powers to encourage
the states to act, it may not coerce the states into action.
If the Congressional action amounts to coercion rather
than encouragement, then that action is not a proper
exercise of Congress’s Spending Power, but is instead a
violation of the Tenth Amendment. Id. (“Our decisions
have recognized that in some circumstances the financial
inducement offered by Congress might be so coercive as to
pass the point at which pressure turns into compulsion.”).
After Dole, this Court did not hold that an exercise
of Congressional Spending Power was unduly coercive
until the 2012 decision in Sebelius, 567 U.S. at 576. The

26
Spending Power question raised in Sebelius involved the
“Medicaid expansion” provision of the Affordable Care
Act (“ACA”), which increased the number and categories
of individuals that participating states must cover. The
ACA would increase federal funding to cover some, but
arguably not all, of the states’ cost of expanding Medicaid
coverage in the specified ways. Id. at 576. If a state did not
comply with the ACA’s new coverage requirements, it lost
not only the federal funding for those new requirements
but all of its federal Medicaid funds. The 26 states and
others who challenged the ACA contended that this
Medicaid expansion provision exceeded Congress’s
authority under the Spending Clause, and seven Justices
of this Court agreed.
The second prong of the Dole test, “clear notice,”
was substantially modified by Sebelius. Historically, this
prong of the Dole test has been read as seeking to ensure
that the terms of the conditions on the offer made to the
state are clear at the time the offer is made so that the
state can make an informed decision whether to accept
the offer. In Sebelius, Chief Justice Roberts applied
Dole’s “clear notice” restriction in an entirely new way,
such that the question became whether the states could
have known at the time they agreed to participate in the
original Medicaid plan that those funds might later be
at risk unless additional conditions—to be disclosed at
some unknown point in the future—were met. Id. at 584.
“Clear notice” cannot be provided based on new conditions
attached to the receipt of federal funds decades after the
states start relying on such funds followed years later
with coercive new strings being attached to the receipt
of those funds by Congress. Id. And by analogy, a forced
waiver of Eleventh Amendment immunity is not voluntary
and unequivocal without “clear notice.”

27
It is undisputed that LSU has received federal
funding and support as consideration for educating
students originating in the 1870’s. LSU was established
as a land grant university by an act of the Louisiana
legislature, approved on April 7, 1874, to carry out the
United States Morrill Act of 1862, whereby the federal
government granted lands for this purpose. 7 U.S.C.
§ 301. No condition was placed on Louisiana’s sovereignty
by the land grant, and Louisiana did not waive sovereign
immunity as part of the land grant in 1874. The Morrill
Act, an act of Congress, required that military training
be part of LSU’s offered curriculum. The military
training requirement of the Morrill Act is what accounts
for LSU’s Reserve Officer Training Corp program that
has been in existence for almost 150 years. Following the
drafting and ratification of Louisiana’s Constitution of
1974, the Louisiana legislature immediately enacted La.
R.S 13:5106, which does not waive Eleventh Amendment
immunity. No condition or regulation was placed on LSU’s
sovereign immunity under Congress’s Spending Power
while LSU satisfied the conditions of the Morrill Act for
112 years until CREA was enacted in 1986.
The federal government funds the ROTC program
that LSU provides as part of its responsibility under
the Morrill Act and the conditions of the land grant. 10
U.S.C. § 2031. Any federal funding of a component of LSU
triggers coverage by Title IX. O’Connor v. Davis, 126 F.3d
112, 117 (2d Cir. 1997). Military cadets receive scholarships
and stipends administered through the LSU Office of
Student Aid, which are funded by the federal government.
Congress has the constitutional power and obligation to
provide for the common defense of the states, raise and
support armies, and to provide and maintain a navy. U.S.
Const., art. I, §§ 1, 12 and 13. While this type of federal

28
funding triggers Title IX regulation of LSU, the federal
funding is not a “gift” from the federal government to
LSU—it is a requirement of funding for national defense.
To say that LSU voluntarily chooses to give up
sovereign immunity under these circumstances is simply
not accurate. LSU should not have to forego its sovereign
immunity when Congress provides funding for a program
that Congress is constitutionally required to provide. The
conditions that created LSU’s need for and entitlement to
federal funding of its programs today have their genesis
almost 150 years ago. Moreover, prior to the enactment of
Title IX in 1972, LSU received federal financial assistance
to support education of students through the Servicemen’s
Readjustment Act of 1944 (the “GI Bill”) and Title IV, 20
U.S.C. § 1070, going back to 1964. Louisiana could hardly
anticipate that operating an ROTC program with federal
money and accepting GI Bill and Title IV funds prior to
1986 would later mean being stripped of dual sovereignty
in 1986. That sort of bait-and-switch regulation of
sovereign immunity fails the “clear notice” test for the
same reason the Medicaid expansion did in Sebelius.
A waiver of sovereign immunity was not a condition
of LSU’s federal land grant in 1874. A waiver of sovereign
immunity was not a condition of LSU operating a federally
funded ROTC program for a century. A waiver of
sovereign immunity was not a condition of LSU receiving
GI Bill benefits to educate eligible veterans following
World War II. The loss of sovereign immunity was not
part of “the bargain” when Title IX was enacted in 1972.
The loss of sovereign immunity created by CREA in
1986 was not “bargained for” as suggested by the Fifth
Circuit. Requiring LSU to “waive” sovereign immunity
in CREA after 100 years of receiving federal financial

29
assistance is not policy encouragement by Congress—it is
Congressional compulsion aimed to eviscerate an integral
aspect of constitutional dual sovereignty enjoyed by the
states and the federal government. See Alden, 527 U.S.
at 713 (“[A]s the Constitution’s structure, its history, and
the authoritative interpretations by this Court make clear,
the States’ immunity from suit is a fundamental aspect
of the sovereignty which the States enjoyed before the
ratification of the Constitution, and which they retain
today ...”).
Furthermore, in Justice Scalia’s dissenting opinion
in Sebelius, joined by Justice Kennedy, Justice Thomas,
and Justice Alito, the dissenting group actually agreed
with Chief Justice Roberts that the ACA employed
unconstitutional coercion by Congress under its Spending
Power. Sebelius, 567 U.S. 689 (Scalia, J., dissenting)
Five justices of this Court agreed that coercion is an
unconstitutional use of Spending Power:
Coercing States to accept conditions risks
the destruction of the “unique role of the
States in our system.” Davis, supra, at 685,
57 S.Ct. 883 (KENNEDY, J., dissenting). “[T]
he Constitution has never been understood to
confer upon Congress the ability to require
the States to govern according to Congress’
instructions.”
Id. at 677.
When Congress enacted CREA in 1986, Congress
not only required a state that is a federal fund recipient
to abide by Title IX or risk losing its federal funds for

30
education, Congress directly regulated the sovereignty of
the states or required the states to manage and govern
their own sovereignty to suits in federal court based
on the instructions set by Congress, not unilaterally
by the states. CREA does not regulate the behavior of
the states in administering federally funded education
programs. CREA does not change, alter, or modify the
anti-discrimination standard of care implemented by Title
IX. Under CREA, a state that ends up being exonerated
for an alleged Title IX violation brought in federal court
loses its sovereignty because the Eleventh Amendment
is not just an immunity from liability, it is an immunity
from suit. Under Sebelius, Congress’ regulation of a state’s
sovereignty using a funding mechanism to obtain a waiver
is unconstitutional coercion as direct regulation of state
sovereign immunity.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
David M. Bienvenu, Jr.
Counsel of Record
Lexi T. Holinga
Patrick H. Hunt
Bienvenu, Bonnecaze, Foco,
Viator & Holinga, APLLC
4210 Bluebonnet Blvd.
Baton Rouge, LA 70809
(225) 388-5600
david.bienvenu@bblawla.com
October 2020

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED MAY 12, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-30670
STEPHEN M. GRUVER, INDIVIDUALLY AND ON
BEHALF OF MAXWELL R. GRUVER; RAE ANN
GRUVER, INDIVIDUALLY AND ON BEHALF OF
MAXWELL R. GRUVER,
Plaintiffs-Appellees,
v.
LOUISIANA BOARD OF SUPERVISORS FOR
THE LOUISIANA STATE UNIVERSITY
AGRICULTURAL AND MECHANICAL COLLEGE,
Defendant-Appellant.
Appeal from the United States District Court
for the Middle District of Louisiana
May 12, 2020, Filed
Before SOUTHWICK, COSTA, and DUNCAN, Circuit
Judges.
GREGG COSTA, Circuit Judge:

2a
Appendix A
Two decades ago we held that state recipients of Title
IX funding waive their Eleventh Amendment immunity
against suits alleging sex discrimination. Pederson v. La.
State Univ., 213 F.3d 858, 876 (5th Cir. 2000). Louisiana’s
flagship university was the defendant in that case, and it
is back to again invoke Eleventh Amendment immunity
against a Title IX claim. The state has not forgotten its
loss on this issue but argues that an intervening Supreme
Court decision allows us to reexamine our precedent. We
disagree.
I.
This case arises from the tragic death of Maxwell
Gruver after a fraternity hazing event at Louisiana State
University. His parents sued LSU for violations of Title
IX and state law. In support of the federal claim, they
allege that LSU discriminated against male students by
policing hazing in fraternities more leniently than hazing
in sororities.
LSU moved to dismiss the Gruvers’ complaint for lack
of jurisdiction and for failure to state a claim. It argued
that Eleventh Amendment immunity deprived the district
court of jurisdiction. The district court denied the motion
as to the Title IX claim. Although it dismissed the statelaw claims on Eleventh Amendment grounds, it held that
LSU had waived immunity to Title IX suits under Fifth
Circuit precedent. The court then ruled that the Gruvers
had sufficiently alleged a Title IX violation.

3a
Appendix A
LSU cannot bring an interlocutory appeal of the
ruling that the Gruvers stated a claim, but it can appeal
the denial of Eleventh Amendment immunity before the
case goes further, P.R. Aqueduct & Sewer Auth. v. Metcalf
& Eddy, Inc., 506 U.S. 139, 144-45, 113 S. Ct. 684, 121 L.
Ed. 2d 605 (1993). It has done so.
II.
The Eleventh Amendment bars suits that individuals
file against states in federal court. Seminole Tribe of Fla.
v. Florida, 517 U.S. 44, 54, 116 S. Ct. 1114, 134 L. Ed.
2d 252 (1996). As with just about every rule, there are
exceptions. One is that a state may waive its immunity, and
Congress can induce a state to do so by making waiver a
condition of accepting federal funds. Pace v. Bogalusa City
Sch. Bd., 403 F.3d 272, 277-79 (5th Cir. 2005) (en banc).1
We held twenty years ago that this type of Spending
Clause waiver exists for Title IX. Pederson, 213 F.3d at
876. Pederson concluded that the following statute—
enacted in 1986 as the Civil Rights Remedies Equalization
Act—validly conditioned Title IX funding on a recipient’s
waiver of Eleventh Amendment immunity:

1. Congress can also unilaterally abrogate a state’s Eleventh
Amendment immunity by enacting legislation under Section Five
of the Fourteenth Amendment. Pace, 403 F.3d at 277. The Gruvers
contend that abrogation allows their lawsuit too, but we need not
reach the question because of our precedent permitting it to proceed
on waiver grounds. Id. at 287; Pederson, 213 F.3d at 875 n.15.

4a
Appendix A
A State shall not be immune under the Eleventh
Amendment of the Constitution of the United
States from suit in Federal court for a violation
of section 504 of the Rehabilitation Act of 1973,
title IX of the Education Amendments of 1972,
the Age Discrimination Act of 1975, title VI of
the Civil Rights Act of 1964, or the provisions
of any other Federal statute prohibiting
discrimination by recipients of Federal financial
assistance.
42 U.S.C. § 2000d-7(a)(1); see also Pederson, 213 F.3d
at 876. In exchange for receiving federal funds, LSU
subjected itself to the Pederson suit challenging its failure
to field women’s soccer and softball teams. 213 F.3d at 876.
We have since reaffirmed that holding in cases
dealing with other antidiscrimination statutes mentioned
in section 2000d-7. See Miller v. Tex. Tech Univ. Health
Scis. Ctr., 421 F.3d 342, 347-52 (5th Cir. 2005) (en banc)
(Rehabilitation Act); Pace, 403 F.3d at 280-87 (same). We
are not alone. Every circuit to consider the question—
and all but one regional circuit has—agrees that section
2000d-7 validly conditions federal funds on a recipient’s
waiver of its Eleventh Amendment immunity. 2
2. See Barbour v. Wash. Metro. Area Transit Auth., 374
F.3d 1161, 1170, 362 U.S. App. D.C. 336 (D.C. Cir. 2004); NievesMarquez v. Puerto Rico, 353 F.3d 108, 129 (1st Cir. 2003); Koslow
v. Pennsylvania, 302 F.3d 161, 176 (3d Cir. 2002); Robinson v.
Kansas, 295 F.3d 1183, 1190 (10th Cir. 2002), abrogated on other
grounds by Muscogee (Creek) Nation v. Pruitt, 669 F.3d 1159
(10th Cir. 2012); Nihiser v. Ohio E.P.A., 269 F.3d 626, 628 (6th Cir.

5a
Appendix A
LSU acknowledges that precedent stands in the way
of its immunity claim. Indeed, it sought initial hearing
en banc because, under the rule of orderliness, only our
full court can “overturn another panel’s decision.” See
Mercado v. Lynch, 823 F.3d 276, 279 (5th Cir. 2016) (per
curiam) (citation omitted). That request had no takers.
LSU nevertheless presses on. It invokes another way
to avoid one of our precedents: an intervening ruling
from the Supreme Court. The bar it faces is high. For a
Supreme Court decision to constitute a change in the law
that enables a panel to take a fresh look at an issue, it must
mark an “unequivocal” change, “not a mere ‘hint’ of how
the Court might rule in the future.” Id. at 279 (citation
omitted). The decision LSU cites, National Federation
of Independent Business v. Sebelius, 567 U.S. 519, 132
S. Ct. 2566, 183 L. Ed. 2d 450 (2012), does not meet that
standard when it comes to the analysis that Pederson
and our other cases used in finding waivers of sovereign
immunity from states’ acceptance of federal funds. 3
2001); Cherry v. Univ. of Wis. Sys. Bd. of Regents, 265 F.3d 541,
555 (7th Cir. 2001); Jim C. v. United States, 235 F.3d 1079, 1082
(8th Cir. 2000) (en banc); Sandoval v. Hagan, 197 F.3d 484, 500
(11th Cir. 1999), rev’d on other grounds, 532 U.S. 275, 121 S. Ct.
1511, 149 L. Ed. 2d 517 (2001); Litman v. George Mason Univ., 186
F.3d 544, 555 (4th Cir. 1999); Clark v. California, 123 F.3d 1267,
1271 (9th Cir. 1997).
3. We thus need not address the Gruvers’ contention that
preclusion bars LSU from relitigating the Eleventh Amendment
issue it lost in Pederson. While Eleventh Amendment immunity
is a jurisdictional matter, Watson v. Texas, 261 F.3d 436, 440 n.5
(5th Cir. 2001), preclusion is not, Exxon Mobil Corp. v. Saudi Basic

6a
Appendix A
Some background on the inquiry for determining
when the receipt of funds amounts to an Eleventh
Amendment waiver is warranted at this point. Congress
can use its Spending Power to entice states to implement
its policy objectives, even if it could not impose those
policies directly through legislation. South Dakota v.
Dole, 483 U.S. 203, 206-207, 107 S. Ct. 2793, 97 L. Ed. 2d
171 (1987). It does so by granting funds to the states and
conditioning the receipt of those funds on compliance with
federal mandates. Id. If a state accepts federal funds, it
can be held to conditions attached to those funds so long as
the grant and conditions comply with the five-part test laid
out in South Dakota v. Dole, 483 U.S. 203, 107 S. Ct. 2793,
97 L. Ed. 2d 171. That test is: (1) a federal expenditure
must benefit the general welfare; (2) any condition on the
receipt of federal funds must be unambiguous; (3) any
condition must be reasonably related to the purpose of the
federal grant; (4) the grant and any conditions attached to
it cannot violate an independent constitutional provision;
and (5) the grant and its conditions cannot amount to
coercion as opposed to encouragement. Id. at 207-08, 210.
One condition Congress can attach to funds is a
recipient’s waiver of its Eleventh Amendment immunity.
Indus. Corp., 544 U.S. 280, 293, 125 S. Ct. 1517, 161 L. Ed. 2d 454
(2005). Indeed, a reason why issue preclusion does not typically
apply to pure questions of law is that the more flexible doctrine
of stare decisis provides enough stability and protection against
unnecessary litigation burdens. See 18 Restatement (Second) of
Judgments § 29(7) & cmt. i (A m. Law. Inst. 1982); Charles A lan
Wright et al., Federal Practice and Procedure § 4425 (3d ed.
2019).

7a
Appendix A
Pace, 403 F.3d at 278-79. As is usually true for waivers,
any such waiver must be knowing and voluntary. Id. at 27778 (citing Coll. Sav. Bank v. Fla. Prepaid Postsecondary
Educ. Expense Bd., 527 U.S. 666, 682, 119 S. Ct. 2219,
144 L. Ed. 2d 605 (1999)). So when it comes to a condition
waiving sovereign immunity, Dole’s second and fifth
requirements serve dual roles: they ensure not only that
Congress’s exercise of the Spending Power is valid but also
that a state’s immunity waiver is knowing and voluntary.
Id. at 277-79. If a waiver condition is unambiguous, then a
state knows the consequence of accepting any associated
funds. Id. at 279. Likewise, if a waiver condition is not
coercive, then the state’s acceptance of conditioned funds
is voluntary. Id.
LSU’s appeal centers on Dole’s “no coercion”
requirement.4 Pace held that section 2000d-7’s waiver
condition is not coercive, noting that a state agency could
retain its Eleventh Amendment immunity by declining
federal funding without affecting other state agencies’
funding eligibility. Id. at 287.
4. LSU also argues that Congress cannot use its Article
I powers to force a state to constructively waive its Eleventh
Amendment immunity based on its presence in a regulated field.
That argument comes from College Savings Bank v. Florida
Prepaid Postsecondary Education Expense Board, 527 U.S.
666, 119 S. Ct. 2219, 144 L. Ed. 2d 605. But we rejected the
same challenge to section 2000d-7 in Pace. We pointed out that
College Savings “expressly distinguished conditional-spending
waivers of Eleventh Amendment immunity” as “’fundamentally
different from’ illegitimate constructive waivers.” 403 F.3d at 285
(quoting College Savings, 527 U.S. at 686). LSU does not cite to an
intervening change of law on this point, so Pace controls.

8a
Appendix A
According to LSU, NFIB shows that our caselaw
is wrong about the absence of coercion. NFIB held that
Congress’s threat to withhold all Medicaid funding from
states that did not agree to dramatically expand Medicaid
under the Affordable Care Act was unconstitutionally
coercive. 567 U.S. at 575-85. 5 LSU contends that NFIB
identified two situations, present here, when conditional
spending rises to the level of coercion. First, it claims that
NFIB recognized it is coercive for Congress to attach
conditions “that do not . . . govern the use of the funds.”
See NFIB, 567 U.S. at 580.6 That would pose a problem
for section 2000d-7 because its Eleventh Amendment
waiver does not “govern the use of funds” but instead
allows suit alleging sex discrimination in any programs
the recipient administers. Second, LSU asserts NFIB held
that Congress cannot surprise states with post-acceptance
conditions. See id. at 584. And yet, LSU says, Congress
5. Chief Justice Roberts wrote for a plurality on this point.
But because the plurality struck down Medicaid expansion on
narrower grounds than the joint dissent, the plurality opinion is
binding. Miss. Comm’n on Envtl. Quality v. E.P.A., 790 F.3d 138,
176, 416 U.S. App. D.C. 69 & n.22 (D.C. Cir. 2015) (per curiam);
Mayhew v. Burwell, 772 F.3d 80, 88-89 (1st Cir. 2014); see also
Marks v. United States, 430 U.S. 188, 193, 97 S. Ct. 990, 51 L.
Ed. 2d 260 (1977).
6. LSU suggests that this argument also pertains to Dole’s
relatedness inquiry. But NFIB focused on the coercion inquiry;
it “did not address the ‘relatedness’ element.” Arbogast v. Kan.,
Dep’t of Labor, 789 F.3d 1174, 1187 n.5 (10th Cir. 2015). Our holding
that section 2000d-7’s waiver condition is sufficiently related to
Title IX’s antidiscrimination goals thus stands. See Miller, 421
F.3d at 350.

9a
Appendix A
did exactly that when it enacted section 2000d-7 fourteen
years after passing Title IX.
LSU’s first argument misreads NFIB. Its “govern the
use of the funds” language merely delineates between two
types of spending conditions. Both can be constitutional,
but they are subject to different scrutiny. The easier
situation is when Congress places a direct restriction on
how a state uses federal funds. Id. at 580. A restriction
of that sort is constitutional because it “ensures that the
funds are spent according to [Congress’s] view of the
‘general Welfare.’” Id. But, the Chief Justice explained,
Congress can also impose conditions that do not directly
“govern the use of the funds” and instead attempt to
“pressur[e] the States to accept policy changes.” Id. Such
a condition may, for instance, “threat[en] to terminate
other significant independent grants.” Id. And because
those conditions “cannot be justified” on the same basis as
the first type of condition, a different test is appropriate
to assess their constitutionality: the coercion inquiry. Id.
This latter type of condition was at issue in Dole, where
a law withheld five percent of a state’s federal highway
funds unless the state raised its drinking age to 21. Id.
The law “was not a restriction on how the highway funds
. . . were to be used,” so the Dole Court had to “ask[]
whether the financial inducement offered by Congress
was so coercive as to pass the point at which pressure
turns into compulsion.” Id. (internal quotation marks
omitted) (quoting Dole, 483 U.S. at 211). In other words,
determining that a condition does not “govern the use of
the funds” triggers the coercion question (as our prior
cases recognized in applying the coercion analysis); it does

10a
Appendix A
not answer that question. LSU’s first argument thus fails
to show that NFIB upended our understanding of what
constitutes coercion.
The second of LSU’s arguments does not establish an
unequivocal change in the coercion inquiry either. Section
2000d-7’s waiver condition is not new or surprising in the
same way Medicaid expansion was for the state plaintiffs
in NFIB. For starters, NFIB did not hold that every new
condition imposed on already existing funding streams
is invalid. On the contrary, NFIB explained that Dole
permitted exactly that kind of condition, so long as it is
not coercive. See id. at 580 (noting that “no new money
was offered to the States to raise their drinking ages”
in Dole). Indeed, Congress “make[s] changes to federal
spending programs all the time.” Samuel R. Bagenstos,
The Anti-Leveraging Principle and the Spending
Clause After NFIB, 101 Geo. L.J. 861, 888 (2013) (citing
examples). The problem in NFIB was that Congress had
conditioned all of a state’s Medicaid funding on accepting
significant obligations that created a new program entirely
different than the original one the state had opted in
to. The Chief Justice described the new conditions as
“accomplish[ing] a shift in kind, not merely degree” such
that although “Congress may have styled the expansion
a mere alteration of existing Medicaid,” it was actually
“enlisting the States in a new health care program.” Id.
at 583-84. Section 2000d-7 does not do that. While it did
add a new condition to federal funds fourteen years after
Congress and President Nixon enacted Title IX, the
condition does not resemble the creation of a brand-new
legislative program.

11a
Appendix A
For another thing, section 2000d-7 has been on
the books for over thirty years, all the while LSU has
continued to accept federal funding. Cf. Pace, 403 F.3d
at 279 (explaining that, for waiver purposes, “actual
acceptance of clearly conditioned funds is generally
voluntary”). By contrast, the NFIB state plaintiffs
challenged the Affordable Care Act the day it became
law. 567 U.S. at 540. “The fact that the State has long
accepted . . . dollars notwithstanding the challenged
conditions may be an additional relevant factor in the
contract-like analysis the Court has in mind for assessing
the constitutionality of Spending Clause legislation.” Miss.
Comm’n on Envtl. Quality v. E.P.A., 790 F.3d 138, 179, 416
U.S. App. D.C. 69 (D.C. Cir. 2015) (per curiam). For these
reasons, LSU cannot demonstrate that NFIB’s principle
against “surprising,” postenactment spending conditions
clearly applies with equal force to section 2000d-7.
We t herefore conclude t hat NFIB doe s not
unequivocally alter Dole’s conditional-spending analysis.
LSU does not cite, nor could we find, any case holding
that NFIB marks such a transformation of Spending
Clause principles. And the longstanding Title IX funding
arrangement is not on all fours factually with the Medicaid
expansion NFIB addressed. The threat of LSU losing
what amounts to just under 10% of its funding is more like
the “relatively mild encouragement” of a state losing 5%
of its highway funding (less than 0.5% of South Dakota’s
budget) than the “gun to the head” of a state losing all
of its Medicaid funding (over 20% of the average state’s
budget). See NFIB, 567 U.S. at 580-82.

12a
Appendix A
As a result, we remain bound by our precedent: LSU
has waived Eleventh Amendment immunity by accepting
federal funds. Pederson, 213 F.3d at 876. Congress did
not coerce it to do so. Pace, 403 F.3d at 287. LSU is free
to avoid Title IX obligations by declining federal funds
without threatening other state agencies’ funding. Id.
***
The district court’s denial of LSU’s motion to dismiss
for lack of jurisdiction is AFFIRMED.

13a
Appendix B — Appendix
opinionBof the united
states district court for the middle
district of louisiana, filed july 19, 2019
United States District Court
Middle District of Louisiana
CIVIL ACTION 18-772-SDD-EWD
STEPHEN M. GRUVER AND RAE ANN GRUVER,
individually and on behalf of MAXWELL
R. GRUVER, deceased,
VERSUS
STATE OF LOUISIANA THROUGH THE BOARD
OF SUPERVISORS OF LOUISIANA STATE
UNIVERSITY AND AGRICULTURAL AND
MECHANICAL COLLEGE, et al.
July 19, 2019, Decided
RULING
This matter is before the Court on the Motion to
Dismiss1 filed by Defendant, State of Louisiana through
the Board of Supervisors of Louisiana State University
and Agricultural and Mechanical College (“LSU”).
Plaintiffs, Stephen M. Gruver and Rae Ann Gruver
(“Plaintiffs”), individually and on behalf of their deceased

1. Rec. Doc. No. 70.

14a
Appendix B
son Maxwell R. Gruver (“Gruver”), filed an Opposition2
to this motion, to which LSU filed a Reply, 3 and Plaintiffs
filed a Sur-Reply.4 For the reasons which follow, LSU’s
Motion will be granted in part and denied in part.
I.	FACTUAL BACKGROUND
This suit arises out of the tragic death of Maxwell R.
Gruver, a student formerly enrolled at LSU, who died in
September of 2017 following a fraternity-related hazing
incident. Plaintiffs allege that, over the summer of 2017,
LSU sent a 72-page book entitled Greek Tiger to their
son, an incoming freshman.5 Plaintiffs allege this book
“encourage[s] [new students] to consider participating
in fraternity or sorority recruitment,” 6 and served
generally to tout LSU’s long tradition of promoting the
educational opportunities and benefits of Greek Life to
its students. Plaintiffs further allege that, although the
second paragraph of Greek Tiger states that “[h]azing and
inappropriate behavior are not tolerated by LSU[,]” 7 in
reality, this statement does not apply to male students in
fraternities at LSU.

2. Rec. Doc. No. 93.
3. Rec. Doc. No. 91.
4. Rec. Doc. No. 95.
5. Complaint, Rec. Doc. No. 1, ¶ 46.
6. Id.
7. Id. at ¶ 47.

15a
Appendix B
Plaintiffs allege that male students involved in the
Greek fraternity system at LSU face a “risk of serious
injury and death” that is “far worse than the television
portrayals LSU references,” and that, “[b]efore Max’s
death, male students pledging LSU-recognized fraternities
have died, been hospitalized on an emergency basis for
dangerous alcohol consumption, and suffered broken ribs,
cigarette burns and other serious physical injuries.” 8
Plaintiffs further allege that, “[a]s a result of LSU’s policy
and practice of responding differently to the hazing of
male students than the hazing of female students,” the
hazing of female Greek students is “virtually nonexistent,”
while the hazing of male Greek students is “rampant.”9 To
demonstrate this claim, Plaintiffs aver as follows:
128. In addition to the death of Max, incidents
of dangerous hazing, forced consumption of
alcohol, deaths and fraternity injuries involving
male fraternity pledges and members at LSU
include:
a. 2017: Delta Chi Fraternity; hazing activities
in the spring of 2017 including requiring
pledges to participate in a “capture game”
where pledges capture active members,
transport them to an undisclosed location,
and drop them off, forcing them make their
way back to school on foot.
8. Id. at ¶ 9.
9. Id. at ¶ 13.

16a
Appendix B
b. 2016: Kappa Sigma Fraternity; hazing
of pledges including forced consumption
of a lcohol, sleep depr ivation, forced
calisthenics, branding, paddling, and
personal servitude.
c. 2016: Omega Phi Psi Fraternity; hazing
of pledges including an “underground”
pledging process that LSU found “resulted
in the endangering the safety and well-being
of LSU Students.”
d. 2015-2016: Lambda Chi Alpha Fraternity;
hazing of pledges including sleep deprivation,
forced consumption of alcohol, personal
servitude, and sit-ups and push-ups on
trash and broken glass (2015). After another
report of hazing a year later, LSU disallowed
recruitment and living in the fraternity
house for a year (2016).
e. 2015: Beta Kappa Gamma Fraternity;
LSU student Praneet Karki died following
an evening of hazing involving extreme
exercise required of fraternity pledges.
f. 2015: Sigma Chi Fraternity; after LSU
student Sawyer Reed died from a drug
overdose, the investigation revealed likely
hazing of pledges and “rampant” drug use.

17a
Appendix B
g. 2014: Acacia Fraternity; hazing of pledges
including forced alcohol consumption,
personal servitude, acts of physical violence
and forced physical activities, and being
forced to eat dog food and rotten substances.
h. 2014: Lambda Chi A lpha Fraternity;
alcohol-related medical transport of pledge
in conjunction with chapter’s bid-day event.
i. 2014: Sigma Phi Epsilon Fraternity; hazing
of pledges including pledges being driven
off campus, forced to consume alcohol, and
then the intoxicated pledges were taken to
the Mississippi River levee, dropped off, and
told to make their way back to school on foot
in the night. After one fraternity event in
August of 2014 where alcohol was provided
to underage pledges, a pledge was found
unresponsive in an LSU residence hall and
transported to the hospital.
j. 2013: Pi Kappa Phi Fraternity; hazing
of pledges including quizzes pledges
with consequences for incorrect answers,
confining pledges in a small room with
no light and little air, forcing pledges to
kneel on broken silver ware, personal
servitude, and underage and excessive
alcohol consumption.

18a
Appendix B
k. 2011-2012: Sigma Alpha Epsilon Fraternity;
an investigation revealed hazing and
endangering pledges, including hazing
that involved forcing pledges to perform
physical activities, military style workouts
and calisthenics, such as bows and tows and
wall sits, throughout the night.
l. 2012: Sigma Chi Fraternity; hazing of
pledges including cigarette burns and
forced wrestling of one another resulting
in broken ribs.
m. 2012: Acacia Fraternity; violations of LSU’s
rules and alcohol policies arising from an
incident in which three kegs of beer were
provided for all active members and pledges
of the fraternity.
n. 2011: Pi Kappa Phi Fraternity; in the fall
of 2011, fraternity placed on probation by
LSU and fraternity’s national headquarters
for what the fraternity later acknowledged
were “serious incidents of hazing.”
o. 2011: Sigma A lpha Epsilon; hazing of
pledges including forced physical activities
and personal servitude.
p. 2006: Phi Gamma Delta Fraternity; pledge
burned at fraternity event after falling in
bonfire.

19a
Appendix B
q. 1997: Sigma Alpha Epsilon Fraternity;
hazing which involved forced, excessive
consumption of alcohol resulted in the death
of fraternity pledge Benjamin Wynn, whose
blood alcohol content was measured at
.588%, almost 6 times the legal limit, and the
hospitalization of fraternity pledge Donald
Hunt.
r. 1979: Theta Chi Fraternity; a car struck
and killed a fraternity pledge who was
blindfolded and participating in a ritual
march along a roadside.10
Plaintiffs claim that, “[o]f the 27 fraternities on LSU’s
campus, which restrict membership to male students, only
four were without risk-management violations in the five
years preceding Max’s death,” and, “during those five
years, there were at least 24 formal hazing investigations
involving fraternities, 20 of which led to findings of
policy violations.11 Plaintiffs contend, “[i]n contrast, in
that same period, female students participating in LSU
Greek Life never risked or suffered injury or death from
dangerous hazing.”12 Plaintiffs maintain that these “stark
differences” result from “LSU’s policy and practice of
responding differently to the hazing of male students than
the hazing of female students,”13 and further allege that,
10. Id. at ¶ 128.
11. Id. at ¶ 10.
12. Rec. Doc. No. 93 at 2 (citing Rec. Doc. No. 1 at ¶ 13).
13. Rec. Doc. No. 1 at ¶ 13.

20a
Appendix B
[ Y ] e a r a f t er ye a r, LSU ha s rema i ned
deliberately indifferent to the serious and
substantial risks male students face in seeking
the educational opportunities and benefits of
LSU Greek Life, and has refused and failed
to make any material changes to the manner
in which it recognizes, promotes, regulates,
manages, and sanctions fraternities on campus,
leaving them unsafe and imposing serious and
substantial risk to male students seeking the
educational benefits and opportunities touted
by LSU.14
Additionally, Plaintiffs claim that, “[u]nlike LSU
fraternities, LSU sororities, which restrict membership to
female students, do not have a culture or long-documented
history of dangerous hazing and misconduct,” and “when
LSU has received reports of hazing at its sororities, the
sanctions LSU has imposed on the sororities have been
significantly greater in length and degree than sanctions
LSU generally imposes on fraternities for comparable
misconduct.”15 Plaintiffs claim that LSU’s deliberate
indifference to the great risk of injury and death to male
Greek students demonstrates that male Greek students
at LSU “have entirely different, and unequal, access to
educational opportunities and benefits offered by LSU
Greek Life. LSU is deliberately indifferent to those risks,
though quickly and decisively acts when young women
face lesser risks.”16
14. Id. at ¶ 138.
15. Id. at ¶ 11.
16. Rec. Doc. No. 93 at 3 (citing Rec. Doc. No. 1 at ¶¶ 9, 102, 204).

21a
Appendix B
Plaintiffs allege that Gruver’s death was caused by
hazing and forced alcohol consumption while pledging Phi
Delta Theta Fraternity (“Phi Delt”).17 Plaintiffs claim that
Phi Delt, “unbeknownst to and kept secret from Gruver
and his family, had been the subject of numerous credible
complaints of hazing.”18 Plaintiffs further claim that
complaints about the hazing at Phi Delt were so numerous
that “the Director of LSU’s Office of Greek Life ‘begged
for assistance’ from Phi Delt’s national headquarters in
addressing the misconduct.”19 Yet, Plaintiffs claim, neither
LSU nor Phi Delt ever addressed this issue. 20 In fact, a
mere three weeks before Gruver’s death, Plaintiffs allege
that a “self-described ‘Concerned Parent’ emailed the
Office of Greek Life at LSU” 21 as follows:
The Sigma Nu pledge class was made to drink
alcohol at the Sigma Nu house until each pledge
member vomited. This occurred on boys bid
night, August 20th, 2017. I was made aware of
this yesterday, when a mother of a pledge (who
has dropped out because of this) shared this
information with me. As a parent of a pledge
of another fraternity, I am very angry that
this has occurred and I know that it will likely
17. Rec. Doc. No. 1 at ¶¶ 3-6.
18. Rec. Doc. No. 93 at 3 (citing Rec. Doc. No. 1 at ¶¶ 155-182).
19. Rec. Doc. No. 1 at ¶ 17.
20. Id. at ¶¶ 18-19.
21. Id. at ¶ 1.

22a
Appendix B
continue. I do not want to hear that someone’s
son is dead due to alcohol poisoning, and I
expect someone to investigate this incident
ASAP and put an end to hazing at LSU. 22
Plaintiffs further allege that, in response to this email,
“LSU’s Greek Accountability team ‘decided there was
not enough information to investigate the case,’ and
closed its file on the incident.” 23 Plaintiffs claim that
“LSU’s failure to even investigate this parent’s ominous
warning reflects its long-standing deliberate indifference
to the hazing of male students in its fraternities, despite
the severe, pervasive risks of serious injuries and death
those students face” when they participate in Greek life
at LSU. 24
Plaintiffs have sued LSU for alleged violations of Title
IX of the Education Amendments of 1972, 20 U.S.C. § 1681,
et seq. (“Title IX”). LSU has moved to dismiss Plaintiffs’
claims under Rules 12(b)(6) and 12(b)(1) of the Federal
Rules of Civil Procedure, arguing that Plaintiffs have
failed to state a claim and lack standing under Title IX,
and LSU is shielded from suit by Eleventh Amendment
sovereign immunity.

22. Id.
23. Id. at ¶ 2.
24. Id.

23a
Appendix B
II. 	RULE 12(B)(1) MOTION TO DISMISS
“When a motion to dismiss for lack of jurisdiction
‘is filed in conjunction with other Rule 12 motions, the
court should consider the Rule 12(b)(1) jurisdictional
attack before addressing any attack on the merits.’” 25 If a
complaint could be dismissed for both lack of jurisdiction
and for failure to state a claim, “‘the court should dismiss
only on the jurisdictional ground under [Rule] 12(b)
(1), without reaching the question of failure to state a
claim under [Rule] 12(b)(6).’” 26 The reason for this rule
is to preclude courts from issuing advisory opinions and
barring courts without jurisdiction “’from prematurely
dismissing a case with prejudice.’” 27
“Article III standing is a jurisdictional prerequisite.”28
If a plaintiff lacks standing to bring a claim, the Court
lacks subject matter jurisdiction over the claim, and

25. Crenshaw—Logal v. City of Abilene, Texas, 436 Fed. Appx.
306, 308 (5th Cir. 2011)(quoting Ramming v. United States, 281
F.3d 158, 161 (5th Cir. 2001); see also Randall D. Wolcott, MD, PA
v. Sebelius, 635 F.3d 757, 762 (5th Cir. 2011); Fed.R.Civ.P. 12(h)(3)).
26. Crenshaw—Logal, 436 Fed.Appx. at 308 (quoting Hitt v.
City of Pasadena, 561 F.2d 606, 608 (5th Cir.1977)).
27. Id. (citing Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 101, 118 S. Ct. 1003, 140 L. Ed. 2d 210 (1998), and Ramming, 281
F.3d at 161).
28. Crenshaw—Logal, 436 Fed.Appx. at 308 (citing Steel Co.,
523 U.S. at 101, 118 S.Ct. 1003, and Xerox Corp. v. Genmoora Corp.,
888 F.2d 345, 350 (5th Cir.1989)).

24a
Appendix B
dismissal under Rule 12(b)(1) is appropriate. 29 The party
seeking to invoke federal jurisdiction bears the burden
of showing that standing existed at the time the lawsuit
was filed. 30 In reviewing a motion under 12(b)(1) for lack
of subject matter jurisdiction, a court may consider (1)
the complaint alone; (2) the complaint supplemented
by undisputed facts evidenced in the record; or (3) the
complaint supplemented by undisputed facts plus the
court’s resolution of disputed facts. 31
A. 	Sovereign Immunity
LSU argues dismissal under Rule 12(b)(1) is warranted
because, as an arm of the State of Louisiana, it is shielded
by Eleventh Amendment sovereign immunity. LSU
asserted this defense in a case brought under Title IX in
Pederson v. Louisiana State University.32 LSU makes the
same arguments in the present lawsuit that were rejected
by the Fifth Circuit in Pederson, arguing that the United
States Supreme Court decision in National Federation of
Independent Business v. Sebelius33 effectively calls into
29. Whitmore v. Arkansas, 495 U.S. 149, 154-55, 110 S.Ct. 1717,
109 L.Ed.2d 135 (1990); Chair King, Inc. v. Houston Cellular Corp.,
131 F.3d 507, 509 (5th Cir.1997).
30. M.D. Anderson Cancer Ctr. v. Novak, 52 S.W.3d 704, 708
(Tex. 2001); Howery v. Allstate Ins. Co., 243 F.3d 912, 916 (5th Cir.
2001); Ramming, 281 F.3d at 161.
31. Williamson v. Tucker, 645 F.2d 404, 413 (5th Cir.1981).
32. 213 F.3d 858 (5th Cir. 2000).
33. 567 U.S. 519, 132 S. Ct. 2566, 183 L. Ed. 2d 450 (2012).

25a
Appendix B
question the Fifth Circuit’s holding in Pederson, and this
Court should reexamine the issue. The Pederson court
set forth the following analysis in finding that LSU was
not shielded by sovereign immunity for Title IX claims:
42 U.S.C. § 2000d-7(a)(1) provides that: “[a]
State shall not be immune under the Eleventh
Amendment of the Constitution of the United
States from suit in Federal court for a violation
of ... title IX of the Education Amendments of
1972.” In Litman v. George Mason University,
186 F.3d 544 (4th Cir.1999), cert. denied, 528 U.S.
1181, 120 S. Ct. 1220, 145 L. Ed. 2d 1120 (2000),
the Court of Appeals for the Fourth Circuit
concluded that, in enacting § 2000d-7 Congress
“permissibly conditioned [a state university’s]
receipt of Title IX funds on an unambiguous
waiver of [the university’s] Eleventh Amendment
immunity, and that, in accepting such funding,
[the university] has consented to litigate [private
suits] in federal court.” Id. at 555. The test for
finding such waiver “is a stringent one,” College
Sav. Bank v. Florida Prepaid Postsecondary
Educ. Expense Bd., 527 U.S. 666, 119 S.Ct. 2219,
2226, 144 L.Ed.2d 605 (1999) (quoting Atascadero
State Hosp. v. Scanlon, 473 U.S. 234, 241, 105
S.Ct. 3142, 87 L.Ed.2d 171(1985)), and the Fourth
Circuit in Litman conducted a careful analysis
under the relevant inquiry. We cannot improve
on the work done by the court in Litman, and
we therefore simply adopt its holding for all the
reasons supplied in its well-crafted opinion.34
34. Pederson, 213 F.3d at 875-76.

26a
Appendix B
In Pederson, as in the present case, LSU argued
that 42 U.S.C. § 2000d-7(a)(1) did not contain the word
“waiver,” and the state may have logically disregarded
the language of this statute as an attempt to abrogate its
sovereign immunity. LSU also argued that the Supreme
Court’s decision in Seminole Tribe v. Florida 35 rejected
the idea of a state “constructively waiving” its Eleventh
Amendment immunity. 36 The Fifth Circuit rejected both
arguments:
First, we will consider whether 42 U.S.C.
§ 2000d-7(a)(1), although it does not use the
words “waiver” or “condition”, unambiguously
provides that a State by agreeing to receive
federal educational funds under Title IX
has waived sovereign immunity. A state
may “ waive its immunity by voluntarily
participating in federal spending programs
when Congress expresses ‘a clear intent to
condition participation in the programs ... on
a State’s consent to waive its constitutional
immunity.’” Litman, 186 F.3d at 550 (quoting
Atascadero State Hosp., 473 U.S. at 247, 105
S.Ct. 3142). Title IX as a federal spending
program “operates much in the nature of
a contract: in return for federal funds, the
States agree to comply with federally imposed
conditions.” Id. at 551; see also Rosa H. v. San
Elizario Independent School District, 106 F.3d
35. 517 U.S. 44, 116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996).
36. Pederson, 213 F.3d at 876.

27a
Appendix B
648, 654 (5th Cir.1997) (stating that Title IX is
Spending Clause legislation, and as a statute
enacted under the Spending Clause, Title IX
generates liability when the recipient of federal
funds agrees to assume liability)[.] The Supreme
Court has noted that Congress in enacting Title
IX “condition[ed] an offer of federal funding on
a promise by the recipient not to discriminate,
in what amounts essentially to a contract
between the Government and the recipient
of funds.” Gebser v. Lago Vista Indep. School
Dist., 524 U.S. 274, 286, 118 S.Ct. 1989, 1997,
141 L.Ed.2d 277 (1998); Litman, 186 F.3d at
551-552. Thus, based on the above reasoning we
find that in 42 U.S.C. § 2000d-7(a)(1) Congress
has successfully codified a statute which clearly,
unambiguously, and unequivocally conditions
receipt of federal funds under Title IX on
the State’s waiver of Eleventh Amendment
Immunity. See Litman, 186 F.3d at 554.
LSU argues that even if 42 U.S.C. § 2000d-7(a)
(1) is intended to cause waiver of sovereign
immunity, this type of “conditional waiver”
argument is at odds with the Supreme Court’s
decision in Seminole Tribe. We do not find this
argument persuasive. As the Fourth Circuit
reasoned in Litman:
We do not read Seminole Tribe and
its progeny, including the Supreme
Court’s recent Eleventh Amendment

28a
Appendix B
decisions, to preclude Congress from
conditioning federal grants on a state’s
consent to be sued in federal court to
enforce the substantive conditions of
the federal spending program. Indeed,
to do so would affront the Court’s
acknowledgment in Seminole Tribe
of the “unremarkable ... proposition
that States may waive their sovereign
immunity.”
Id. at 556 (quoting Seminole Tribe, 517 U.S.
at 65, 116 S.Ct. 1114). We conclude that in
accepting federal funds under Title IX LSU
waived its Eleventh Amendment sovereign
immunity. 37
LSU acknowledges the Pederson decision but argues
that it should be “closely re-examined in light of” Sebelius,
which LSU contends essentially overrules the Pederson
holding as to sovereign immunity and based on “the
unique relationship that LSU has maintained with the
federal government since LSU’s commencement as a
land grant university in 1874.” 38 LSU maintains that,
37. Id.
38. Rec. Doc. No. 70-1 at 16. LSU also argues that, in College
Savings Bank v. Prepaid Postsecondary Educ. Expense Bd., 527
U.S. 666, 119 S. Ct. 2219, 144 L. Ed. 2d 605 (1999), the Supreme
Court held § 2000d-7’s constructive waiver unconstitutional under
Congress’s Article I Commerce Clause. LSU contends College
Savings distinguished Congress’s ability to extract waivers under
the Commerce Clause and the Spending Power Clause, thus

29a
Appendix B
“[c]onsidering LSU’s historical relationship with the
federal government, Cong ress unconstitutionally
exceeded its Article I Spending Power to the extent
Congress coercively conditioned LSU’s receipt of federal
funds on waiver of its Eleventh Amendment immunity.” 39
LSU contends Sebelius provides two scenarios in
which a constructive waiver is unconstitutionally coercive:
1) where the conditions do not govern the use of the subject
funds, but threaten to terminate other independent grants,
and 2) where the conditions apply retroactively. First, LSU
argues Sebelius allows for the requirement that LSU use
Title IX funds in a nondiscriminatory manner, but it does
not allow § 2000d-7 to terminate the independent grant
of sovereign immunity irrespective of LSU’s compliance
with Title IX. Second, LSU argues it has received federal
funding since 1874 pursuant to the Morrill Act. LSU
maintains that it could not have anticipated in 1874 that
it would later be required to waive immunity in light of
§ 2000d-7’s enactment in 1986. Further, LSU avers it
should not be forced to waive immunity when accepting
federal funds because the United States is required to
fund the ROTC program, and LSU has no choice but to
accept. Thus, under Sebelius, LSU renews its argument
that § 2000d-7 unconstitutionally forces a waiver of
sovereign immunity, and LSU did not knowingly or
voluntarily waive immunity.
narrowing the power to extract waivers under the Spending Clause
while not addressing the extent to which the power is narrowed. LSU
seems to argue Sebelius does this narrowing.

39. Id. at 16-17.

30a
Appendix B
As to abrogation, LSU contends Title IX does not
abrogate immunity because it was not enacted pursuant
to the Fourteenth Amendment.
Plaintiffs oppose LSU’s motion and argue that LSU
has validly waived Eleventh Amendment sovereign
immunity. Plaintiffs contend that the Fifth Circuit held
both in Pederson and Pace v. Bogalusa City Sch. Bd.40
that, in enacting § 2000d-7, Congress unequivocally
conditioned receipt of the statute’s listed funds, including
Title IX, on the State’s waiver of immunity, and these
cases remain binding. Further, Plaintiffs claim that the
Fifth Circuit has already rejected LSU’s argument that
the conditional spending programs at issue therein—the
IDEA and § 504 of the Rehabilitation Act—were unduly
coercive, and those holdings should apply equally to Title
IX funds.
Plaintiffs contend LSU is attempting to circumvent
the holding of Pederson by citing to College Savings and
Sebelius; however, Plaintiffs maintain these cases are
factually inapposite and do not support LSU’s argument
that § 2000d-7 is unduly coercive. Plaintiffs note that
four circuit courts have already found that § 2000d-7’s
conditions are reasonably related to the question of
whether federal funds are spent in a nondiscriminatory
manner, and no condition of § 2000d-7 applies retroactively.
Rather, Plaintiffs aver that LSU has voluntarily and
knowingly accepted federal funding since the enactment
of § 2000d-7 thirty years ago. Thus, the spending program
is not coercive.
40. 403 F.3d 272 (5th Cir. 2005).

31a
Appendix B
Additionally, Plaintiffs argue that LSU is collaterally
estopped from challenging Pederson. Plaintiffs claim
that LSU asserted and fully and vigorously litigated
these same sovereign immunity arguments in Pederson.
Further, Plaintiffs note that LSU has repeatedly made the
argument that the Fifth Circuit should “re-examine” this
issue in light of “new” Supreme Court jurisprudence, and
the Fifth Circuit has rejected this argument every time.41
Plaintiffs contend that, in addition to § 2000d-7’s
valid conditional waiver of immunity, per Lesage v. State
of Texas,42 Congress also abrogated states’ immunity to
Title IX lawsuits. The Lesage court found that § 2000d-7
abrogated immunity under Title VI. Plaintiff argues Title
IX was modeled on Title VI, and the language parallels
exactly. Title VI prevents race discrimination, Title IX
prevents gender discrimination, and both invoke the
Equal Protection Clause of the Fourteenth Amendment
as needed to abrogate immunity. Thus, Plaintiffs
maintain that LSU is still not immune from suit even if
unconstitutionally coerced.
As to the state law claims, Plaintiff admits this
Court lacks jurisdiction but argues their claims should
be dismissed without prejudice.
41. LSU relied on Seminole Tribe v. Florida, 517 U.S. 44, 116
S. Ct. 1114, 134 L. Ed. 2d 252 (1996), in Pederson; Garcia v. S.U.N.Y.
Health Sciences Center, 280 F.3d 98 (2d Cir. 2001), in Pace; and
Jackson v. Birmingham Board of Education, 544 U.S. 167, 125 S.
Ct. 1497, 161 L. Ed. 2d 361 (2005), in Miller v. Tex. Tech Univ. Health
Scis. Ctr., 421 F.3d 342 (5th Cir. 2005).
42. 158 F.3d 213, 215-219 (5th Cir. 1998), overruled on other
grounds, 528 U.S. 18, 120 S. Ct. 467, 145 L. Ed. 2d 347 (1999).

32a
Appendix B
Based on a wealth of binding jurisprudence, the Court
finds that LSU is not entitled to sovereign immunity from
suits brought under Title IX. The Eleventh Amendment
bars private suits against a State in federal court, but
there are two exceptions to this general rule. Immunity
may be abrogated when Congress acts under § 5, the
Enforcement Clause of the Fourteenth Amendment,43 or
a state may consent to suit, and such consent must be both
knowing and voluntary.44
In South Dakota v. Dole, the Supreme Court set
forth the test that is employed in determining the
validity of a conditional waiver such as § 2000d-7. 45
Under Dole, congressional spending programs that
benefit the general welfare, contain unambiguous
conditions, and contain conditions reasonably related
to the purpose of the expenditure, are valid unless they
are either independently prohibited or coercive.46 Dole’s
requirements ensure compliance with the “knowing and
voluntary” requirements set forth in College Savings.47 A
state knowingly waives immunity in exchange for federal
funds when it has knowledge that a Spending Clause
43. U.S. CONST. amend. XIV, § 5.
44. Pace v. Bogalusa City Sch. Bd., 403 F.3d 272, 277 (5th Cir.
2005).
45. Id. at 278 (citing South Dakota v. Dole, 483 U.S. 203, 107
S. Ct. 2793, 97 L. Ed. 2d 171 (1987)).
46. Id. at 279
47. Id.

33a
Appendix B
condition requires waiver of immunity.48 Thus, Congress
must make conditions on federally granted money clear
and unambiguous. If Congress does so, a state’s actual
acceptance of funds is generally voluntary, unless the
spending program is deemed coercive.49
Specifically, 42 U.S.C. § 2000d-7(a)(1) conditions
receipt of Title IX funds on a state’s waiver of immunity.
It provides that “a State shall not be immune under
the Eleventh Amendment of the Constitution of the
United States from suit in Federal court for a violation
of ...title IX of the Education Amendments of 1972.”
The Pace court held that there is no independent bar
to conditional-spending programs under the Spending
Clause or unconstitutional-conditions doctrine. 50 The
Pace court also found that, because a state can avoid suits
under the IDEA by rejecting IDEA funds (and to do so,
a state would not have to reject all federal assistance),
the conditional-spending scheme is not unduly coercive. 51
Additionally, although this statute does not contain the
words “waiver” or “condition,” in the statute, Congress
clearly, unambiguously, and unequivocally conditions
receipt of federal funds under Title IX on the State’s
48. “That [a state] might not ‘know’ subjectively whether it had
any immunity to waive by agreeing to conditions is wholly irrelevant.”
Id. at 284.
49. Id. at 279.
50. Id. at 285-286.
51. Id. at 287 (citing 29 U.S.C. § 794(b)(1); See e.g. Jim C. v.
United States, 235 F. 3d 1079 (8th Cir. 2000)).

34a
Appendix B
waiver of Eleventh Amendment immunity. 52 Therefore,
the “knowing” requirement is satisfied. In both Pace
and Pederson, the Fifth Circuit found that, in accepting
federal funds under Title IX, the State waived its Eleventh
Amendment sovereign immunity. 53
In Sebelius, several states challenged Congress’s
ability to require states to comply with Medicaid
expansion or potentially lose all federal Medicaid funding.
The Court affirmed that Congress customarily attaches
conditions to funds granted to states, 54 but the power to
attach these conditions has limits. 55 The Sebelius Court
explained that conditions must be “unambiguous so that
a state at least knows what it is getting into,”56 must be
related to the federal interest in national projects or
programs, 57 and must not induce the states to engage in
activities that would themselves be unconstitutional. 58
And while Congress may induce the states to accept
52. Id. at 280; Pederson, 213 F.3d at 876.
53. Id. at 280-81.
54. Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 675, 132
S. Ct. 2566, 183 L. Ed. 2d 450 (2012)(citing Pennhurst State School
and Hospital v. Halderman, 451 U.S. 1, 17, 101 S. Ct. 1531, 67 L.
Ed. 2d 694 (1981); South Dakota v. Dole, 483 U.S. 203, 206, 107 S.
Ct. 2793, 97 L. Ed. 2d 171 (1987)).
55. Id. (citing Dole, supra, at 207, 208).
56. Id. (citing Pennhurst, supra, at 17).
57. Id. (quoting Massachusetts v. United States, 435 U.S. 444,
461, 98 S. Ct. 1153, 55 L. Ed. 2d 403 (1978)).
58. Id. (citing Dole, supra, at 210).

35a
Appendix B
conditional grants, Congress may not cross the “point at
which pressure turns into compulsion, and ceases to be
inducement.”59 Where states have a real choice in accepting
or declining federal aid, the federal-state relationship is
much like a contract, and the legitimacy of Congress’s
spending power rests on whether the state knowingly
and voluntarily accepts the terms of the contract.60 If a
state truly has no choice but to accept federal funding,
the offer is coercive.61
The Sebelius Court compared the Medicaid expansion
conditions to the conditions imposed on South Dakota in
Dole. In Dole, Congress conditioned 5% of South Dakota’s
federal highway funds on the State’s adoption of a drinking
age of 21. This small percentage was deemed relatively
mild encouragement rather than coercion, whereas
the threat of losing all Medicaid funding was deemed
coercive.62 Therefore, in this Court’s view, Sebelius did not
announce a new rule on conditional spending programs but
simply applied Dole and other established precedent. In
keeping with Fifth Circuit precedent, the Court finds that
LSU is not shielded from suit under Title IX by Eleventh
Amendment sovereign immunity.63
59. Id. at 675 (quoting Steward Machine Co. v. Davis, 301 U.S.
548, 590, 57 S. Ct. 883, 81 L. Ed. 1279, 1937-1 C.B. 444 (1937)).
60. Id. at 676 (citing Barnes v. Goldman, 536 U.S. 181, 186,
122 S. Ct. 2097, 153 L. Ed. 2d 230 (2002); Pennhurst, supra, at 17.
61. Id. at 679.
62. Id.
63. Considering the Court’s ruling, Plaintiffs’ claim that LSU
is collaterally estopped from raising this defense is moot. Further,

36a
Appendix B
B. 	Standing
LSU also claims that Plaintiffs lack standing to bring
this suit under Title IX. LSU argues that the mere risk
of injury is insufficient to satisfy the Article III standing
requirement, let alone to sustain a Title IX claim. LSU
contends “Plaintiffs must allege a ‘concrete and particular
injury in fact’ that is ‘fairly traceable’ to the alleged actions
of [LSU].”64 LSU further argues that a risk of future
harm only satisfies Article III standing when the harm
is “certainly impending.”65 LSU contends that Plaintiffs
have not alleged that Gruver was at a unique risk to be
hazed, nor that all male fraternity members are hazed,
so there can be no “certainly impending” risk.
Plaintiffs argue in opposition that LSU is barred
from raising its Article III standing argument in a reply
memorandum. However, should the Court entertain the
argument, Plaintiffs assert that an “invasion of a legally
protected interest” is sufficient for Article III standing.
Plaintiffs argue Gruver had a legally protected interest
in not being excluded from participation in, or denied
benefits of, an education program on the basis of sex, and
the discriminatory policy denied him those benefits and
because the Court has determined that LSU waived its sovereign
immunity, the Court need not address abrogation. See Pederson,
213 F.3d at 875, n. 15.

64. Rec. Doc. 91 at 4 (quoting Lujan v. Defenders of Wildlife,
504 U.S. 555, 560, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).
65. Id. (citing Clapper v. Amnesty International USA, 568 U.S.
398, 133 S. Ct. 1138, 185 L. Ed. 2d 264 (2013)).

37a
Appendix B
caused his hazing and death. Therefore, Plaintiffs argue
they have demonstrated standing under Title IX.
The Court finds that LSU is not barred from raising
a challenge to standing in its Reply. The law is clear that
“a defect in Article III standing deprives [a] federal court
of subject matter jurisdiction.” 66 Further, “[b]ecause
standing is a necessary component of federal subject
matter jurisdiction, it may be raised at any time by a
party or the court.”67
Nevertheless, the Court is unpersuaded by LSU’s
argument. To demonstrate Article III standing, a plaintiff
must show: (1) “an injury in fact—a harm suffered by
the plaintiff that is concrete and actual or imminent,
not conjectural or hypothetical[,]” (2) “causation—a
fairly traceable connection between the plaintiff’s injury
and the [defendant’s] complained-of conduct[,]” and (3)
“redressability—a likelihood that the requested relief will
redress the alleged injury.”68 The invasion of a “legally
protected interest” is an injury in fact.69
66. Brooks v. Georgia Pacific, L.L.C., No. 16-0676, 2017 U.S.
Dist. LEXIS 64097, 2017 WL 1534219 at *2 (citing Cadle Co. v.
Neubauer, 562 F.3d 369, 374 (5th Cir. 2009) (citation omitted)).
67. 2017 U.S. Dist. LEXIS 64097, [WL] at *3 (citing Sample v.
Morrison, 406 F.3d 310, 312 (5th Cir. 2005)).
68. Pederson, 213 F.3d at 869 (quoting Sierra Club v. Peterson,
185 F.3d 349, 360 (5thCir. 1999)).
69. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992).

38a
Appendix B
The Pederson cou r t found Equa l P rot ection
jurisprudence to be instructive on the issue of when a
legally protected interest is violated. In those cases, when
the government erects a barrier making it more difficult
for members of one group to obtain a benefit than it is
for members of another group, the injury in fact is the
inability to seek benefits on equal footing.70 Therefore, to
establish standing in these circumstances, a plaintiff only
needs to demonstrate that he is ready and able to compete,
but the discriminatory policy prevents him from doing so
on an equal basis.71 The Court finds that Plaintiffs have
sufficiently pled such an injury, as well as causation (that
the injury was fairly traceable to LSU’s alleged policy),
and redressability, as will be demonstrated in greater
detail below.
III.	MOTION TO DISMISS UNDER RULE 12(b)(6)
When deciding a Rule 12(b)(6) motion to dismiss,
“[t]he ‘court accepts all well-pleaded facts as true, viewing
them in the light most favorable to the plaintiff.’” 72
70. Pederson, 213 F.3d at 871 (citing Northeastern Fla. Chapter
of the Associated Gen. Contractors of Am. v. City of Jacksonville,
508 U.S. 656, 666, 113 S. Ct. 2297, 124 L. Ed. 2d 586 (1993)); (see also
Wilson v. Glenwood Intermountain Properties, Inc., 98 F.3d 590,
(10th Cir. 1996) (applying principles of Equal Protection standing
to Fair Housing Act claim)).
71. Id.
72. In re Katrina Canal Breaches Litigation, 495 F.3d 191, 205
(5th Cir. 2007)(quoting Martin K. Eby Constr. Co. v. Dallas Area
Rapid Transit, 369 F.3d 464, 467 (5th Cir. 2004)).

39a
Appendix B
The Court may consider “the complaint, its proper
attachments, documents incorporated into the complaint
by reference, and matters of which a court may take
judicial notice.” 73 “To survive a Rule 12(b)(6) motion to
dismiss, the plaintiff must plead ‘enough facts to state a
claim to relief that is plausible on its face.’” 74 In Twombly,
the United States Supreme Court set forth the basic
criteria necessary for a complaint to survive a Rule 12(b)
(6) motion to dismiss. “While a complaint attacked by a
Rule 12(b)(6) motion to dismiss does not need detailed
factual allegations, a plaintiff’s obligation to provide the
grounds of his entitlement to relief requires more than
labels and conclusions, and a formulaic recitation of the
elements of a cause of action will not do.” 75 A complaint is
also insufficient if it merely “tenders ‘naked assertion[s]’
devoid of ‘further factual enhancement.’” 76 However, “[a]
claim has facial plausibility when the plaintiff pleads
the factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” 77 In order to satisfy the plausibility
73. Randall D. Wolcott, M.D., P.A. v. Sebelius, 635 F.3d 757,
763 (5th Cir. 2011).
74. In re Katrina Canal Breaches Litigation, 495 F.3d at 205
(quoting Martin K. Eby Constr. Co. v. Dallas Area Rapid Transit,
369 F.3d at 467).
75. Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555, 127 S.
Ct. 1955, 167 L. Ed. 2d 929 (2007)(internal citations and brackets
omitted)(hereinafter Twombly).
76. Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937, 173
L.Ed.2d 868 (2009)(internal citations omitted)(hereinafter “Iqbal”).
77. Twombly, 550 U.S. at 570.

40a
Appendix B
standard, the plaintiff must show “more than a sheer
possibility that the defendant has acted unlawfully.” 78
“Furthermore, while the court must accept well-pleaded
facts as true, it will not ‘strain to find inferences favorable
to the plaintiff.’” 79 On a motion to dismiss, courts “are not
bound to accept as true a legal conclusion couched as a
factual allegation.”80
Title IX prohibits discrimination on the basis of
sex in federally-funded educational programs. 81 It is
enforceable through an individual’s private right of action
and allows for the recovery of damages. 82 There are two
avenues to pursue a claim under Title IX: one based on an
institution’s official policy of intentional discrimination on
the basis of sex and one that seeks to hold an institution
liable for teacher-on-student or student-on-student sexual
harassment. 83 According to the Supreme Court in Davis
v. Monroe County Board of Education, 84 to prevail on a
78. Iqbal, 556 U.S. at 678.
79. Taha v. William Marsh Rice University, 2012 U.S. Dist.
LEXIS 62185, 2012 WL 1576099 at *2 (quoting Southland Sec. Corp.
v. Inspire Ins. Solutions, Inc., 365 F.3d 353, 361 (5th Cir. 2004)).
80. Twombly, 550 U.S. at 556 (quoting Papasan v. Allain, 478
U.S. 265, 286, 106 S.Ct. 2932, 92 L.Ed.2d 209 (1986)).
81. 20 U.S.C. § 1681(a).
82. Franklin v. Gwinnett Cty. Public Schs., 503 U.S. 60, 112 S.
Ct. 1028, 117 L. Ed. 2d 208 (1992).
83. See Pederson, 213 F.3d at 882; see also Doe 1 v. Baylor
University, 240 F.Supp.3d 646, 657 (W.D. Texas 2017).
84. 526 U.S. 629, 119 S. Ct. 1661, 143 L. Ed. 2d 839 (1999).

41a
Appendix B
student-to-student harassment claim, the plaintiff must
prove: (1) the school acted with deliberate indifference to
sexual harassment of which it had (2) actual knowledge,
and (3) the harassment must be so severe, pervasive,
and objectively offensive that it can be said to deprive
the victim of access to the educational opportunities or
benefits provided by the school. 85 Because the deliberate
indifference must cause the harassment, liability is
further limited to circumstances where the recipient
exercises substantial control over both the harasser and
the context in which the known harassment controls. 86
LSU erroneously argues that Plaintiffs’ claim must
be dismissed because the implied private right of action
under Title IX does not impose liability against LSU where
Plaintiffs do not allege peer-on-peer sexual harassment.
Plaintiffs’ Title IX claim in this case is unquestionably
based on LSU’s alleged policy of intentional discrimination
on the basis of sex, an allowable cause of action under
Title IX. Therefore, the Court will not address LSU’s
arguments regarding peer-on-peer sexual harassment
as they are irrelevant.
LSU claims Plaintiffs’ allegations are largely
conclusory and only based “upon information and belief.”
LSU further argues that Plaintiffs’ Complaint compares
one instance of sorority hazing where females received
the harshest available sanction to twenty-four instances
of fraternity hazing where twenty policy violations were
85. Davis, 526 U.S. at 650.
86. Id. at 645 (emphasis added).

42a
Appendix B
found. LSU contends these purported facts are insufficient
to demonstrate a policy of discrimination.
LSU further argues that Plaintiffs are attempting
to circumvent Davis by alleging LSU engaged in a
practice of discrimination by policing sorority hazing
more strictly than fraternity hazing. LSU contends this
type of claim fails as well because Plaintiffs must assert
that: (1) Gruver was a member of a protected class, (2)
this class suffered adverse action, and (3) this class was
treated less favorably than similarly situated students. 87
LSU argues that Plaintiffs have pled no facts supporting
a claim that those outside of Gruver’s protected class were
treated more favorably than he. Rather, LSU maintains
that Plaintiffs’ Complaint demonstrates the opposite—
that those outside of Gruver’s class were in fact treated
worse—because females were treated more harshly when
their hazing complaints were met with greater sanctions.
Further, LSU contends Plaintiffs failed to claim that LSU
took any adverse action against Gruver himself, or that
he ever reported hazing in the first place. LSU argues
that if Plaintiffs allege the hazing was the adverse action,
then the claim must be analyzed under Davis, where it
would fail.

87. Rec. Doc. 70-1 at 11 (citing Kirk v. Monroe City Sch. Bd.,
2018 U.S. Dist. LEXIS 154376, 2018 WL 4292355, at *6 (W.D. La.
Aug. 24, 2018), report and recommendation adopted, 2018 U.S. Dist.
LEXIS 153235, 2018 WL 4291750 (W.D. La. Sept. 7, 2018); Arceneaux
on Behalf of Rebekka A. v. Assumption Par. Sch. Bd., 242 F. Supp.
3d 486, 494 (E.D. La. 2017)).

43a
Appendix B
LSU also contends that a classic intentional
discrimination claim fails because the alleged intentional
discrimination must cause the injury. 88 LSU claims
Plaintiffs only allege that LSU failed to prevent an
injury. Further, LSU contends a sex discrimination claim
predicated on student-on-student conduct must show the
school had an affirmative policy or practice that directed
or encouraged misconduct on the basis of sex, not that
the institution simply failed to prevent the conduct. LSU
argues that Plaintiffs claim the adverse action caused by
LSU was the mere risk Gruver faced, thus the policy was
not an affirmative cause of hazing.
Plaintiffs assert that Davis is inapplicable to their
claim because it is not based on peer-on-peer harassment.
Rather, Plaintiffs have alleged a claim based on LSU’s
actions in intentionally discriminating against male
students seeking the benefits of Greek life as compared
to female Greek students. Plaintiffs maintain that
“discrimination under Title IX should be construed
broadly.”89
Plaintiffs argue that Pederson is controlling as to the
elements of their claim, and it provides that “the proper
test for determining whether an intentional violation
88. Rec. Doc. 91, pg. 2 (citing Weckhorst v. Kansas State
University, 2017 U.S. Dist. LEXIS 135556, 2017 WL 3674963 (D.
Kan. 2017)).
89. Rec. Doc. 93 at 6 (citing Jackson v. Birmingham Bd. Of
Educ., 544 U.S. 167, 174-175, 125 S. Ct. 1497, 161 L. Ed. 2d 361 (2005)
(internal quotation marks omitted)).

44a
Appendix B
has occurred under Title IX is whether an institution
‘intended to treat [students] differently on the basis of
their sex.’”90 Plaintiffs allege LSU has a policy of treating
sorority hazing complaints more harshly than fraternity
complaints. Plaintiffs further argue that, because this
practice is grounded in outdated stereotypes of men, it
is intentional discrimination that forces males to seek
benefits of Greek Life with greater risk of injury.
Plaintiffs also decry LSU’s claim that their allegations
are conclusory and direct the Court to numerous
paragraphs in the Complaint detailing the manner in
which LSU treated fraternity hazing claims.91 Specifically,
Plaintiffs allege LSU misconstrues their allegations “to
arrive at the erroneous conclusion that because at least
three fraternities were punished more severely than the
single sorority discussed, Plaintiffs’ allegations fail to give
rise to a reasonable inference that LSU treated males
and females differently.” 92 Rather, Plaintiffs contend that
one sorority was in fact punished more harshly than all
fraternities during the same time period, and this fact
supports the position that LSU treated sorority hazing
complaints more severely.
To LSU’s assertion that those outside of Gruver’s
class were not treated more favorably because they
were met with greater sanctions, Plaintiffs counter that
90. Id. (quoting Pederson, 213 F.3d at 882).
91. Id. at 8 (citing Complaint at ¶¶ 101-103, 112-116, 125-141,
155-182).
92. Id. at 9 (internal quotation marks omitted).

45a
Appendix B
this argument is “completely backwards.” 93 Instead,
Plaintiffs maintain that those outside of Gruver’s class
(female Greek students) were treated better specifically
because their hazing complaints were met aggressively
and appropriately by LSU with greater sanctions, thereby
providing greater protection by LSU to female Greek
students and reducing their risk of injury. Plaintiffs
argue that the adverse action taken against Gruver was
the operation of its discriminatory policy regarding male
Greek hazing which proximately caused Gruver’s injury
specifically and creates a heightened risk of injury to all
male Greek students generally.
The Court has considered the allegations in the
Complaint and the applicable jurisprudence, and the
Court finds that LSU is not entitled to dismissal under
Rule 12(b)(6).
In Pederson, the plaintiffs brought suit against LSU
under Title IX, alleging LSU intentionally discriminated
on the basis of sex by not sponsoring a women’s fastpitch softball team. In that case, the district court
concluded that a Title IX claimant must prove intentional
discrimination in addition to a threshold finding of a Title
IX violation. 94 The Fifth Circuit found that the actual
notice and deliberate indifference requirements of sexual
harassment cases have “little relevance” in determining
whether intentional discrimination occurred.95 Rather, the
93. Rec. Doc. No. 93 at 8.
94. Pederson, 213 F.3d at 879-880.
95. Id. at 882.

46a
Appendix B
proper test is “whether [LSU] intended to treat women
differently on the basis of sex by providing them unequal
athletic opportunity.” 96 “[LSU] need not have intended
to violate Title IX, but need only have intended to treat
women differently.” 97 Application of archaic attitudes
about women constitute intentional discrimination.98 Thus,
the Pederson plaintiffs were required only to prove a
violation of Title IX and intentional discrimination.99
In most Title IX cases, the threshold finding of a
Title IX violation is found by a violation of the clear terms
of the statute. The Pederson court made the threshold
finding of a Title IX violation by utilizing the Policy
Interpretations of Title IX, 44 Fed. Reg. at 71,413 (1979),
the application of which is limited to athletics programs.100
Further, the Supreme Court’s holding in Gebser v. Lago
Vista Independent School Dist.,101 the leading teacheron-student harassment case, seems to support this
approach. Gebser also dispenses with the actual notice and
deliberate indifference requirements where the Title IX
claim alleges an official policy of discrimination.102 This
96. Id.
97. Id. at 881 (internal citations omitted).
98. Id.
99. See also Horner v. Kentucky High School Athletic
Association, 206 F.3d 685 (6th Cir. 2000) (alleging the same claim
and proofs needed for the claim).
100. Id.
101. 524 U.S. 274, 118 S. Ct. 1989, 141 L. Ed. 2d 277 (1998).
102. Id. at 290.

47a
Appendix B
logically leaves the claimant to prove only the policy of
intentional discrimination. Davis also seems to support
this approach where it says an institution can be sued
for damages “where the funding recipient engages in
intentional conduct that violates the clear terms of the
statute.”103
The most factually analogous case located by the
Court is J.H. v School Town of Munster,104 a case decided
by United States District Court for the Northern District
of Indiana. Although this ruling addressed a summary
judgment motion, it is nonetheless instructive to the
present case. In J.H., a high school male brought a Title
IX claim against his school alleging that it purposefully
ignored complaints of hazing in the boys’ swimming
program due to their gender.105 The Court noted that
“J.H.’s argument is essentially that the Defendants were
willfully turning a blind eye to all of the awful things
going on in the male swimming program because ‘boys
will be boys.’”106 The court explained that, “[i]n essence,
it’s not necessary to show that Munster had a policy of
forcing the boys to do or not do something that didn’t apply
to the girls. Instead, indifference to the boys’ welfare is
enough.”107 The court continued:
103. Davis, 526 U.S. at 642.
104. 160 F.Supp.3d 1079 (N.D. Ind. 2016).
105. Id.
106. Id. at 1086.
107. Id. (citation omitted).

48a
Appendix B
In pursuing this theory, J.H. must show a
connection between Munster’s alleged custom
or practice and his injury. Rice ex rel. Rice v.
Corr. Med. Servs., 675 F.3d 650, 670 (2012). So
what all this boils down to is that J.H. must show
that Munster engaged in a widespread practice
of ignoring complaints of hazing from the boys’
swimming program, either intentionally or
with deliberate indifference to the boys’ rights,
simply because the complaints were coming
from boys and not girls. See e.g. Hayden, 743
F.3d at 583 (intentional discrimination can be
shown by either deliberate indifference or a
discriminatory school policy). J.H. can show
this based on evidence of his own treatment, in
addition to the treatment of others on his team.
Bohen, 799 F.2d at 1187 (Maj. opinion).108
The court relied on the same elements laid out in Davis
and found that the school’s policy alone demonstrated its
intent to discriminate, suggesting that the first Davis
prong requiring discrimination is met even if it does
not demonstrate harassment.109 Nevertheless, the court
concluded that J.H. could proceed with his claim under
either framework.110 The court reasoned that the same
evidence showing a practice of intentionally ignoring the
108. Id.
109. Id. at 1091. The J.H. court did note, however, that the
Seventh Circuit had not addressed whether a plaintiff needs to
satisfy the three remaining prongs of Davis for this type of claim.
110. Id.

49a
Appendix B
boys’ hazing complaints satisfies the deliberate indifference
element in that the practice is necessarily deliberately
indifferent, and the basis of the claim is the school’s own
policy which establishes the school’s actual knowledge.111
Finally, the court found that the plaintiff had submitted
sufficient evidence that the alleged discrimination was
sufficiently severe, pervasive, and objectively offensive
such that it undermined his educational opportunities.112
The court held that there was sufficient evidence to
allow a jury to determine whether the school’s failure to
remedy the hazing—which was extensively reported to
the school administration—caused J.H. to leave the school,
experience a decline in grades, and suffer psychological
effects.113 The court also noted that a plaintiff need not
prove that the girls’ team experienced no hazing, but only
that the discriminatory policy applied only to the boys.114
Ultimately, the court denied the motion for summary
judgment for this portion of J.H.’s claim, but it did not
resolve the factors necessary to prove a Title IX claim
because it found the claim satisfied the test for studenton-student harassment claims. While this analytical
framework is not binding on this Court, the Court
nevertheless finds the J.H. decision instructive, and it
demonstrates that federal courts have allowed claims like
Plaintiffs herein to proceed to trial under the same type
of pleadings.
111. Id. (emphasis added).
112. Id.
113. Id.
114. Id. at 1088.

50a
Appendix B
The present case alleges both an intentional policy
of discrimination and student misconduct. A similar case
was presented in Doe 1 v. Baylor University, wherein
female students asserted a claim seeking to hold the
university liable for its discriminatory custom or policy
that created a heightened risk of sexual harassment for
female students.115 Specifically, the ten female plaintiffs
in Baylor sued the university under Title IX and alleged
that, while they were students at Baylor University,
they were sexually assaulted by another
student, but that when they sought assistance
and protection from Baylor, the school did
nothing (or almost nothing) in response to their
reports. Plaintiffs allege Baylor discouraged
them from reporting their assaults, failed to
adequately investigate each of the assaults,
and failed to ensure Plaintiffs would not be
subjected to continuing assault and harassment.
Plaintiffs assert that Baylor’s practices in
handling their reports reflect the school’s
widespread practice of mishandling reports
of peer sexual assault. They allege these
practices chilled other students from reporting
sexual harassment, permitted the creation of
a campus condition “rife with sexual assault,”
“substantially increased Plaintiffs’ chances of
being sexually assaulted,” (Third Am. Compl.,
Dkt. 56, at 1-2, ¶ 29), and ultimately created
115. 240 F.Supp.3d 646, 657-658 (W.D. Tex. 2017) (hereinafter
Baylor).

51a
Appendix B
a harassing educational environment that
deprived Plaintiffs of a normal college education
and other educational opportunities.116
Notably, the Baylor court rejected the university’s
argument, on a Rule 12(b)(6) motion to dismiss, that
“evidence of a general problem of sexual violence is not
sufficient.”117 The court explained:
At this stage of litigation, the Court considers
only whether Plaintiffs’ Complaint contains
sufficient factual matter, if accepted as true,
to state a claim to relief that is plausible on
its face. Baylor attempts to disclaim liability
by dismissing Plaintiffs’ allegations as “an
amalgam of incidents that involved completely
different contexts, offenders, and victims,”
(Def.’s Mot. Dismiss Doe 7, Dkt. 62, at 21), and
arguing that “evidence of a general problem
of sexual violence is not sufficient,” (id. at
22). This Court disagrees. Plaintiffs have
not alleged that Baylor had knowledge of
accusations against their specific assailants
prior to their initial assaults, but what they
have alleged—a widespread pattern of
discriminatory responses to female students’
reports of sexual assault—is arguably
more egregious. Indeed, even those Supreme
Court justices who expressed skepticism
116. Id. at 652.
117. Id. at 653.

52a
Appendix B
regarding holding institutions liable for sexual
assaults on individual students under Title
IX have suggested that “a clear pattern of
discriminatory enforcement of school rules
could raise an inference that the school itself
is discriminating.” Davis v. Monroe Cty. Bd.
Educ., 526 U.S. 629, 683, 119 S.Ct. 1661, 143
L.Ed.2d 839 (1999) (Kennedy, J., dissenting).
In particular they noted that a “school’s failure
to enforce its rules when the boys target the
girls on a widespread level, day after day, may
support an inference that the school’s decision
not to respond is itself based on gender” and
thereby be actionable under Title IX. Id.118
Summarizing the plaintiffs’ claims, the court stated:
Taken together, Plaintiffs allege, these facts
demonstrate Baylor created a condition that
substantially increased Plaintiffs’ chances
of being sexually assaulted, (id. at 1); chilled
student reporting of sexual harassment, (id.
¶ 41); led to a sexually hostile environment
at the university, (id. ¶ 43); caused Plaintiffs
psychological damage and distress, (id. ¶ 48);
and deprived Plaintiffs of a normal college
education, (id. ¶ 50).119

118. Id. (emphasis added).
119. Id.

53a
Appendix B
Applying relevant jurisprudence, the Baylor court
noted that the deliberate indifference and actual notice
elements of Davis do not apply to this type of claim.120
Rather, the court found, in evaluating a heightened risk
claim, it must consider whether the alleged custom or
policy inflicted the injury of which plaintiffs complain.121
In support of their heightened risk claim, the plaintiffs
alleged that “Baylor’s handling of reports of sexual
assaults created a heightened risk of sexual assault
throughout the university’s student body.”122 Specifically,
the plaintiffs alleged that Baylor
knew of and permitted a “campus condition rife
with sexual assault,” (Third Am. Compl., Dkt.
56, ¶ 29); that sexual assault was “rampant”
on Baylor’s campus, (id. ¶ 27); that Baylor
mishandled and discouraged reports of sexual
assault, (id. at 1, ¶ 36); and that Baylor’s
response to these circumstances “substantially
increased” the risk that Plaintiffs and others
would be sexually assaulted, (id. at 1).123
Evaluating this claim, the court noted and held as follows:
The Supreme Court has repeatedly explained
that where the Title IX violation in question is
caused by an institution’s discriminatory policy
120. Id. at 661.
121. Id.
122. Id.
123. Id.

54a
Appendix B
or custom, courts need not apply the actual
notice and deliberate indifference framework
typically used in cases involving institutional
liability for sexual harassment or assault.
See Gebser, 524 U.S. at 290, 118 S.Ct. 1989
(stating that the actual notice and deliberate
indifference requirements are restricted to
those cases “that do not involve [an] official
policy of the [funding recipient]”); Davis, 526
U.S. at 642, 119 S.Ct. 1661 (acknowledging that
an institution cannot be liable unless it has notice
that its conduct could subject it to a damages
claim but providing that “this limitation ... is
not a bar to liability where a funding recipient
intentionally violates the statute”). Plaintiff’s
heightened-risk claims fit squarely within the
official-policy rubric previously identified by the
Court, and the Court is satisfied that Plaintiffs
have met their burden under Rule 12(b)(6).124
The Baylor court found that the plaintiffs sufficiently
alleged that Baylor repeatedly misinformed them of their
rights under Title IX, failed to investigate sexual assaults,
discouraged them from naming assailants or coming
forward, and failed to report any on-campus assaults
to the Department of Education.125 Thus, the court
determined that these facts, if proven, would allow a jury
to infer that Baylor’s policy created the heightened risk of
sexual assault, thereby inflicting the plaintiffs’ injuries.126
124. Id.
125. Id. at 662.
126. Id.

55a
Appendix B
Similarly, in the instant case, Plaintiffs allege that
LSU’s purposeful disregard of Greek male hazing
complaints created a greater risk of danger for males in
fraternities as compared to females in sororities. While
Baylor is not binding, the Court finds the Baylor court’s
reasoning and analysis particularly persuasive and
applicable herein because, substituting sexual assault/
harassment allegations for “Greek male hazing,” the
allegations pled against the universities in both cases are
extremely similar. Here, Plaintiffs have clearly alleged
that LSU misinformed potential male students about the
risk of hazing in fraternities, had actual notice of numerous
hazing violations, and failed to address or correct the
hazing issue for Greek males while aggressively and
appropriately addressing and correcting hazing issues in
sororities, thereby providing protection to female Greek
students that was not equally provided to Greek male
students. Plaintiffs’ Complaint is replete with allegations
that LSU had knowledge of the hazing problem within
Greek fraternities and was deliberately indifferent to
the risk this posed to male Greek students by a policy
of general inaction to fraternity violations as opposed
to strong corrective action taken in response to sorority
violations. The Court finds that, as in Baylor, if these facts
are proven, a jury may infer that LSU’s policy created the
heightened risk to Greek male students of serious injury
or death by hazing, thereby inflicting the injury alleged
herein. Accordingly, LSU’s Motion to Dismiss shall be
denied as to the Title IX claims asserted.

56a
Appendix B
IV. 	CONCLUSION
For the reasons set forth above, the Court finds that
LSU’s Motion to Dismiss127 is hereby GRANTED in
part and DENIED in part. LSU’s Motion is GRANTED
as to state law claims asserted considering Plaintiffs’
concession that LSU is immune from suit in federal
court as to those claims. Plaintiffs’ state law claims are
hereby DISMISSED without prejudice. LSU’s Motion is
DENIED as to Plaintiffs’ Title IX claims.
IT IS SO ORDERED.
Baton Rouge, Louisiana, this 19th day of July, 2019.
/s/ Shelly D. Dick			
CHIEF JUDGE SHELLY D. DICK
UNITED STATES DISTRICT
COURT
MIDDLE DISTRICT OF
LOUISIANA

127. Rec. Doc. No. 70.

57a
C
APPENDIX CAppendix
— CONSTITUTIONAL
AND STATUTORY PROVISION INVOLVED
The Spending Clause provides:
The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts and
provide for the common Defence and general Welfare of
the United States; but all Duties, Imposts and Excises
shall be uniform throughout the United States.
U.S. Const. Art. I, § 8, cl. 1.
The Eleventh Amendment provides:
The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United States
by Citizens of another State, or by Citizens or Subjects of
any Foreign State.
U.S. Const. amend. XI.
Title IX of the Educational Amendments of 1972
provides, in pertinent part:
No person in the United States shall, on the basis of
sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under any
education program or activity receiving Federal financial
assistance***.

58a
Appendix C
20 U.S.C.A. § 1681(a).
The Rehabilitation Act Amendments of 1986, Section
1003 provides:
(a) General provision
(1) A State shall not be immune under the Eleventh
Amendment of the Constitution of the United States
from suit in Federal court for a violation of section 504 of
the Rehabilitation Act of 1973, title IX of the Education
Amendments of 1972, the Age Discrimination Act of 1975,
title VI of the Civil Rights Act of 1964, or the provisions
of any other Federal statute prohibiting discrimination
by recipients of Federal financial assistance.
(2) In a suit against a State for a violation of a statute
referred to in paragraph (1), remedies (including remedies
both at law and in equity) are available for such a violation
to the same extent as such remedies are available for such
a violation in the suit against any public or private entity
other than a State.
(b) Effective date
The provisions of subsection (a) shall take effect with
respect to violations that occur in whole or in part after
October 21, 1986.
42 U.S.C.A. § 2000d-7.

